OFFICE OF INSPECTOR GENERAL
       AUDIT REPORT
   GRANTE MONITORING
           93-067

          MAY 1994
 =   LEGAL SERVICES CORPORATZON
     750 1st Street, NE, 10th Floor, Washington, D.C.20002-4250
     (202) 336-8830                             Fax (202) 336-8955

OFFICE OF INSPECTOR GENERAL



                                                                                   May 4, 1994




                                   TO THE BOARD OF DIRECTORS


  This report transmits the results of the Performance Audit of the Legal Services Corporation
  (LSC) Grantee Monitoring Function (OIG Project 93-067). The Office of Inspector General
  conducted the audit through a contract with the independent public accounting fm Cotton &
  Company, CeMied Public Accountants. The audit was conducted in accordance with
  Government Auditing Standards, and covered the period October 1991 through December 1993.

  The overall objectives were to evaluate the efficiency and effectiveness of the LSC grantee
  monitoring process and to determine whether the process satisfied the requirements of the LSC
  Act.

  The audit determined that LSC was not fully effective in meeting the LSC Act's requirement to
  "...insure the maintenance of the highest quality of service." It also found that monitoring was
  inefficient, duplicative, and unnecessarily costly.

  The report made 12 recommendations for improving LSC grantee monitoring. Most significant
  were the recommendations to: 1) establish measures and quality standards for grantee
  performance; 2) monitor readily measurable compliance requirements as part of the annual audit
  conducted by the grantees' Independent Public Accountants; 3) monitor grantee delivery
  performance through peer-based quality reviews; and 4) develop detailed guidelines for quality
  reviews and update the LSC Audit Guide for compliance testing and reporting.

  We estimated that the recommended revised monitoring process would save LSC approximately
  $1,601,765 annually, and its grantees approximately $447,680 annually.

  Corporation management agreed with the findings, and agreed in principle with the
  recommendations.
To fulfii our responsibility under the Inspector General Act of 1978 for ensuring the quality of
the audit work performed, we conducted a review of the work papers for the performance audit
of the monitoring function. Specifically, we:

              reviewed the audit approach and planning;
              evaluated the qualifications and independence of audit personnel;
              monitored the progress of the audit at key points;
              examined working papers and reports to evaluate compliance with Government
              Audin'ng Standardr; and,
              performed other procedures we deemed necessary.

Based on the results of our review, the performance audit was planned, executed, and reported
in accordance with applicable audit standards. Therefore, in our opinion, the audit work
provides a reliable basis for the report's conclusions and recommendations, and has been adopted
by the OIG.

Unless you disclose its contents sooner, we will not release the report to the public for 30 days.
If you have any questions, please direct your inquiries to me or Ms. Karen M. Voellm, Assistant
Inspector General for Audits at (202) 336-8843.



                                                    Edouard Quatrevaux
                                                    Inspector General
GLOSSARY                                                    v

ABBREVIATIONS


purpose                                                     I

Background                                                  1

Results in Brief                                            2

Principal Findings   Monitoring Has Improved But Is Not
                     Seen As Useful

                     Monitoring and Reporting Policies
                     Are Not Based on Standards

                          Monitoring Policy Created
                          Unnecessary Work and Lengthened
                          Reporting Time

                          Poor Internal Quality Control

                          Possible Objectivity Impairment

                     Monitoring Duplicated the Work of
                     Independent Public Accountants

                     Failure to Establish Monitoring
                     Priorities Resulted in Questionable
                     Resource Allocations

                     Current Monitoring Benefits
                     May Not Justify The Costs

                     Conclusions on Past Monitoring

Qualitative Evaluations
Require Poverty Law
Experience

Grantees Are Willing to
Be Reviewers and Absorb
Some Costs
                         CONTENTS (Continued)


Performance Standards
Development Initiatives

Recommendations and
Estimated Cost Savings
LSC Hanagement's Response                                       17


Appendix I           Cost Savings are Difficult to Predict     1-1
Estimated Cost
Savings              Key Assumptions                           1-4

                     LSC's Total Costs of the Current
                     Monitoring Process

                     LSC's Total Costs of the Revised
                     Monitoring Process

                     Net Cost Impact to LSC of the
                     Revised Monitoring Process

                     Net Cost Impact to LSC Grantees of
                     the Revised Monitoring Process

Appendix I1          Overview
Model for A
Reorganized LSC      Monitoring Technical Compliance
Grantee Monitoring   Requirements Through An Expanded
Process              IPA Role

                     LSC Legal Services Delivery
                     Quality Standards

                     Grantee Legal Services Delivery
                     Quality Policies and Procedures

                     Grantee Quality Review Standards
                     and Procedures

                     Redefined Role for PEAR                 11-17

                     Quantifiable Performance Measurement    11-18
                            CONTENTS (Continued)


Appendix I11            Objectives
Objectives, Scope
and Me thodology        Scope and Methodology

                        Internal Controls                        I11 - 6

Appendix IV
Management's Response                                             IV-I



Exhibit 1 - 1           Analysis of PEAR Monitoring Costs
                        Based on Fiscal Year 1993 Expenses and
                        PEAR Time Keeping Study

Exhibit 11-1            Suggested Standard Formats for LSC's
                        Grantee Quality Review Report and
                        Letter of Comment
                                 GLOSSARY



Attestation   As defined by the American Institute of Certified
Engagement    Public Accountants in its S t a t e m e n t s on Standards f o r
              A t t e s t a t i o n Engagements, an attest engagement is one in
              which a practitioner is engaged to issue or does issue a
              written communication that expresses a conclusion about the
              reliability of a written assertion that is the responsibili-
              ty of another party.

Audit Guide   A u d i t and Accounting Guide f o r R e c i p i e n t s and A u d i t o r s ,
              issued by Legal Services Corporation in August 1976, revised
              June 1977, September 1979, September 1981, and January 1986.
              Both the 1981 and 1986 guides continue in use, at the
              discretion of individual recipients.

Compliance    As used in this report, condition of agreement or confor-
              mance with requirements of the Legal Services Corporation
              Act, implementing regulations, and grant terms and condi-
              tions.

Consultant    An independent contractor, compensated at a daily rate,
              employed to monitor, evaluate, and prepare monitoring
              reports on grantees.

Desk Review   A review of a grantee's annual audited financial statements
              and supplemental letters.

Grantee or    Any entity receiving financial assistance from Legal
Recipient     Services Corporation (LSC) through a grant or contract

Grantee       As used in this report, a review process conducted by
Quality       individuals experienced in poverty law and in managing
Review        legal services programs. The review's objective is to
              evaluate and make qualitative judgments about the quality
              effectiveness, and efficiency of legal services delivery.

Grantee       As used in this report, an individual who possesses the
Quality       requisite knowledge, experience, and skills to conduct
Reviewer      indepth evaluations of the quality, effectiveness, and
              efficiency of grantee legal services delivery practices,
              procedures, and systems.
                        GLOSSARY (Continued)


Grantee Self-    As used in this report, a process wherein a grantee
Assessment and   annually determines its extent of compliance or non-
Certification    compliance with LSC's technical compliance requirements and
                 signs a certification attesting to its compliance with these
                 requirements. This grantee certification then becomes the
                 focus of testing by the grantee's independent public
                 accountant as part of the compliance testing required by
                 LSC's (to be updated) Grantee Audit Guide.

Grantee Self-    As used in this report, a process wherein a grantee
Inspection       senior staff member determines the extent to which the
                 grantee is adhering to LSC's Legal Services Delivery Quality
                 Standards and its own Legal Services Delivery Quality
                 Policies and Procedures.      The self-inspection will be
                 required to be conducted and documented by grantees in years
                 in which they have not been scheduled for an LSC-conducted
                 grantee quality review. The self-inspection will follow
                 quality review procedures defined by LSC.

Legal Services   Broadly defined rules for the measurement of quality
Delivery         and effectiveness with respect to the provision of
Quality          legal services to the poor. (Webster's defines a standard
Standards        as "something established by authority, custom, or general
                 consent as -amodel or example: criterion; something set up
                 and established by authority as a rule for the measure of
                 quantity, weight, extent, value, or quality.")

Legal Services   An individual grantee's practice-specific interpretation
Delivery         of how LSC's more general Legal Services Delivery Quality
Quality          Standards are being implemented in their particular program.
Policies and     These specific policies and procedures will consist of the
Procedures       the measurable practices and reviewable operational proce-
                 dures that grantee management and staff must follow on a
                 day-to-day and case-by-case basis in order to achieve the
                 broader LSC quality standards.

Monitor          The generally accepted term used within the LSC community to
                 describe the current process employed to assess grantee
                 compliance with the LSC Act's requirements. (Webster's
                 defines this term as "scrutinize,check, collect data, warn,
                 admonish, remind.")

Monitoring       A team of LSC staff or consultants with backgrounds in
Team             law, accounting, and management, who visit grantees for the
                 purpose of monitoring.
                      GLOSSARY (Continued)


Performance    Part of the accountability process for public officials,
Audit          through which auditors develop independent conclusions
               regarding the extent to which responsible officials are
               faithfully, efficiently, and effectively carrying out their
               responsibilities.

Qualitative    As used in this report, this term denotes the more
Compliance     subjective, hard-to-measurecompliance elements of the
Requirements   LSC Act and LSC's regulations, particularly those that focus
               on the quality, effectiveness, and efficiency of legal ser-
               vice delivery in relation to expectations envisioned in the
               LSC Act's purpose: "...insurethe maintenance of the highest
               quality of service."

Quality        As used within LSC, a review conducted by LSC's Office
Assurance      of Inspector General of the work done by independent
Review         public accountants (IPAs) who perform annual financial
               statement audits of LSC grantees. The review's purpose is
               to assess the quality of the IPA's work and determine if the
               work complied with applicable audit standards and LSC's
               Audit Guide.

Technical      As used in this report, this term denotes an LSC
Compliance     compliance requirement that is technical, objective,
Requirement    and with which conformity can be easily determined.
                         ABBREVIATIONS



AICPA    American Institute of Certified Public Accountants

ABA      American Bar Association

CLASP    Center for Law and Social Policy

FTE      Full-Time Equivalent

GAAS     Generally Accepted Auditing Standards

GAO      General Accounting Office

IPA      Independent Public Accountant

LSC      Legal Services Corporation

OIG      Office of Inspector General

OMB      Office of Management and Budget

PCIE     President's Council on Integrity and Efficiency

PEAR     Office of Program Evaluation, Analysis and Review

SCLAID   ABA Standing Committee on Legal Aid and Indigent Defendants




                                viii
             REPORT ON THE PERFORMANCE AUDIT OF
              THE LEGAL SERVICES CORPORATION'S
                GRANTEE MONITORING FUNCTION
                 OFFICE OF INSPECTOR GENERAL
                     PROJECT NO. 93-067


PURPOSE       The Legal Services Corporation (LSC) is a private, nonprofit
              organization created by the Legal Services Corporation Act
              of 1974, as amended, to fund the provision of "high quality
              legal assistance to those who would be otherwise unable to
              afford adequate legal counsel." The Act requires the Corpo-
              ration to monitor, evaluate, and provide independent evalua-
              tions of funded programs to ensure that the Act's provisions
              are carried out economically and effectively.

             During the 1980s, the Corporation developed monitoring prac-
             tices and procedures that were harshly criticized by gran-
             tees and legal organizations outside of LSCfs domain for
             focusing on regulatory compliance while paying little atten-
             tion to the quality of legal services provided. The moni-
             toring process was viewed as punitive, unnecessarily disrup-
             tive, and costly.

             At the request of the LSC Office of Inspector General (OIG),
             Cotton & Company conducted a performance audit of LSC's
             grantee monitoring function to determine, among other
             specific objectives (see Appendix 111), if the current
             grantee monitoring process is essential (Are monitoring
             visits necessary?) and, if deemed essential, if monitoring
             can be performed more economically and less intrusively.
             Our audit covered the period October 1, 1991, through July
             31, 1993.


BACKGROUND   Each year, the Congress appropriates monies to LSC which, in
             turn, awards grants to 323 nonprofit organizations located
             throughout the United States, its possessions, and the Dis-
             trict of Columbia. Legal assistance to the poor is provided
             by these 323 grantees, their sub-grantees, and pro bono,
             judicare, and private attorney involvement arrangements.

             Prior to 1980, LSC's monitoring was carried out by nine
             regional offices. Teams of "peers," comprised largely of
             lawyers with civil rights and poverty law experience, re-
             viewed public pleadings and talked to judges, opposing
             attorneys, clients, people or organizations sued, and local
             charitable, poverty-related organizations. They were said
             to have looked at "substantive" issues relating to the ef-
             fectiveness with which programs were being carried out.
                     LSC's early monitoring, however, was criticized by the
                     General Accounting Office (GAO) as inadequate and ineffec-
                     tive. GAO also stated that LSC had not developed standards
                     for measuring the quality of legal services provided and
                     therefore could not "insure the maintenance of the highest
                     quality of service."'

                     In response, LSC abandoned the peer review approach, closed
                     eight of the nine regional offices, and initiated a monitor-
                     ing approach that focused primarily on regulatory compli-
                     ance. Monitors were described by some grantees as having
                     little or no hands-on experience in monitoring or with the
                     operations or types of legal services offered by the people
                     and programs they were monitoring.

                    The general perception, however, is that in recent years LSC
                    monitoring has improved. Grantees, for the most part, have
                    begun to accept monitoring as a continuing fact of life.
                    The most recent monitoring visits have been described by
                    many grantees as friendlier, helpful, and professional.
                    Moreover, despite grantee criticism, some grantees clearly
                    needed assistance in getting their management and accounting
                    systems in order.


RESULTS             Although improved since the severest of criticisms of the
IN BRIEF            1980s, monitoring, according to grantees, continues to
                    concentrate primarily on readily measurable regulatory
                    compliance rather than on the quality and effectiveness of
                    legal services. In addition, the policies and practices
                    established by the Office of Program Evaluation, Analysis,
                    and Review (PEAR) on monitoring and reporting do not meet
                    standards prescribed by the Comptroller General, largely du-
                    plicate work by others, and consume scarce resources in
                    monitoring grantees whose programs already perform well. As
                    a result, monitoring achieves relatively little in measur-
                    able benefits when compared with its costs. Moreover, LSC's
                    continuing inability to establish meaningful standards of
                    performance and quality of legal services has prevented it
                    from developing an efficient method for allocating scarce
                    resources to monitoring grantees in greatest need of assis-
                    tance. These shortfalls have contributed to inefficient and
                    not fully effective monitoring, and to LSC's continuing
                    inability to "insure the maintenance of the highest quality
                    of service."



     '  Review of Legal Services Corporation's Activities Concerning Program
Evaluation and Expansion, HRD-80-103,August 28, 1980.
                   The current Board of Directors is aware of many of these
                   conditions and has begun steps to correct problems.


PRINCIPAL
FINDINGS


MONITORING HAS    The underlying purpose of monitoring is to ensure the main-
IMPROVED BUT IS   tenance of the highest quality of legal services to the
NOT SEEN AS       poor. According to grantees, that purpose has not been
USEFUL            achieved, because primary emphasis by monitors continues to
                  be placed on compliance with the more technical aspects of
                  legal and regulatory requirements. The harder-to-measure
                  aspects of service delivery, according to grantees, have not
                  been adequately evaluated, because the monitors lacked expe-
                  rience in managing legal services offices or providing legal
                  services to the poor, As a result, while PEAR managers
                  strongly believe their monitoring efforts successfully
                  evaluated grantee performance and quality of service, grant-
                  ees see little benefit from the monitoring visits and even
                  less benefit from the monitoring reports. Thus, the approx-
                  imately $4.2 million LSC and grantees spent each year for
                  monitoring has been of uncertain value.

                  For example, of 145 grantees responding to our request for
                  information about their monitoring experiences, 87 percent
                  said monitors spent considerable time on compliance with
                  laws and regulations and little time on effectiveness and
                  quality of service. Only 5 percent of the grantees said
                  that monitors spent considerable time evaluating quality of
                  service delivery, and only 8 percent said that monitors
                  spent considerable time evaluating the effectiveness of pro-
                  gram performance. In addition, while PEAR managers said
                  that monitors identified significant achievements and inno-
                  vative methods, only 3 percent of the grantees said that
                  monitors spent considerable time identifying these attrib-
                  utes.

                  Major factors contributing to inefficiencies and the limited
                  usefulness of monitoring and monitoring reports include:

                       LSC's policies for monitoring and reporting, which were
                       not based on standards prescribed by any recognized
                       standards-setting body,

                  rn   Duplication by monitors of work done by grantees'
                       independent public accountants (IPAs), and
                      LSC's continuing inability to develop performance
                      standards for delivery of legal services to the
                      poor.


MONITORING AND   LSC's policies and procedures for monitoring and reporting
REPORTING        created unnecessary work and increased reporting time. In
POLICIES ARE     addition, monitors lacked adequate training and supervision,
NOT BASED ON     and report development lacked essential quality control to
STANDARDS        produce accurate and timely reports. As a result, instead
                 of being helpful, reports may have been counter-productive
                 and resulted in unnecessary costs to both grantees and LSC.
                 These factors seem to have provided ample reason for
                 grantees to be critical of monitors and of the monitoring
                 process.

                 In our opinion, monitoring is a form of performance audit,
                 as defined by GAO in Government Auditing Standards. These
                 standards establish minimum requirements for reviewers'
                 professional qualifications, the quality of fieldwork, and
                 characteristics of professional audit reports. In the ab-
                 sence of any other recognized standards for monitoring,
                 LSC's monitoring procedures and reporting policy should have
                 attempted to meet these GAO standards.


Monitoring       Monitoring reports identified specific deficiencies, inter-
Policy Created   nal control weaknesses, and conditions of regulatory noncom-
Unnecessary      pliance, but did not focus on them. Instead, reports
Work and         described all grantee program elements reviewed during
Lengthened       monitoring on-site visits. Most of the elements described
Reporting        were in compliance and needed no management attention.
Time             This policy of reporting conditions of compliance as well as
                 conditions of noncompliance resulted in unnecessary costs of
                 about $1.93 million during Fiscal Years (FY)1992 and 1993.

                 On-site work needed to be adequately documented, but moni-
                 toring reports did not need to include information irrele-
                 vant to compliance or management improvement. LSC ' s re -
                 ports, however, were rambling and unfocused. In addition to
                 being excessively long, the reports also took more time to
                 issue than necessary, primarily because they were replete
                 with unnecessary and possibly irrelevant information.

                 For example, our analysis of 30 randomly selected reports of
                 monitoring visits conducted between October 1, 1991, and
                 March 31, 1993, showed that:
     The average time to issue final monitoring re-
     ports was about 7 months and 3 weeks following
     on-site work.

m    The average draft report was 58 pages long

rn   The average grantee response was 26 pages long.

m    The average final report was over 60 pages long.

m    As measured by the number of issues addressed by
     the grantees, 76 percent of the grantees' re-
     sponses to PEAR'S draft monitoring reports were
     to correct errors and misstatements about program
     elements that were in compliance and needed no
     management attention.

     The remaining 24 percent of the responses related
     to deficiencies, noncompliance and recommenda-
     tions about which the grantees were often in
     agreement with PEAR.

The average cost per monitoring assignment was approximately
$30,021--about$19,807 incurred directly by LSC monitors and
consultants and about $10,214by grantees (see Appendix I).
Of these costs, an average of about $9,072 per assignment
represented the combined cost for draft report preparation,
grantee responses to reports, and report completion. If the
distribution of grantee responses is an accurate reflection
of the allocation of resources spent in writing and respond-
ing to the reports, then an estimated 76 percent of this
cost, or about $6,895 per average assignment, related to the
unnecessary reporting of conditions of compliance. LSC is-
sued about 11.7 monitoring reports per month. Consequently,
LSC and grantees incurred about $1.93 million in unnecessary
costs for the approximately 280 monitoring reports issued
during FYs 1992 and 1993.

A PEAR official stated that reporting conditions of compli-
ance as well as noncompliance was necessary to evidence the
extent of their monitoring efforts.

In addition, about a third of the grantees responding to our
survey stated that they preferred long, detailed reports.
One grantee said that long reports helped in understanding
the monitors' thought processes, while another said the re-
ports were useful in obtaining contributions. Most grantees
(about two-thirds), however, preferred short reports. The
previous director of PEAR stated that a new report format
had been developed that addressed most of our concerns.
                     Reporting conditions of compliance does not, in itself,
                     violate Government Auditing Standards. From an economy and
                     efficiency standpoint, however, the issuance of voluminous
                     draft reports, requiring equally voluminous grantee respons-
                     es to identify errors about information that was of little
                     or no use toward improving grantee compliance, was wasteful
                     and counter-productive. Although the new report format may
                     result in shorter reports, and therefore be an improvement,
                     the policy of reporting conditions of compliance has not
                     changed, and this is wasteful and unnecessary. Further, the
                     needs of those grantees who prefer long, detailed reports
                     can be met effectively through other means without sacrific-
                     ing economy and efficiency.


Poor Internal        Because on-site visits attempted to cover an expansive
Internal             range of legal and regulatory compliance requirements in
Quality              a short period of time, monitors had little opportunity to
Control              corroborate or verify the information obtained. Thus, they
                     made numerous errors in their descriptions of grantee pro-
                     grams. LSC, however, had no reliable internal quality con-
                     trol procedures in place--including monitor training,hn-
                     site monitor supervision, workpaper preparation and review,
                     gathering and testing of competent evidential matter, or a
                     report indexing and referencing process--to assure that
                     draft reports were accurate. These are essential elements
                     of GAO standards. Instead, LSC expected and depended on the
                     grantees to identify errors in the draft monitoring reports.


Possible             In addition, GAO standards require that the independence and
Objectivity          objectivity of individuals conducting performance reviews
Impaim e n t         not be impaired. We questioned PEAR'S non-management moni-
                     toring staff about the current process' management and ap-
                     proach. A significant number of the 21 staff monitors we
                     questioned said they believed their independence and objec-
                     tivity might have been impaired because of:

                     ¤    Preconceived ideas (that either they or PEAR
                          management had) toward individuals, groups, orga-
                          nizations, or objectives of a particular program
                          that could bias the review. (43 percent)




         The last monitor training provided by PEAR was conducted in January
1992.   No training funds have been allocated to monitor training since that
date.
                          m     Biases (either theirs or PEAR management's),
                                including those induced by political or social
                                convictions. (43 percent)

                                Pressure, perceived or real, exerted by LSC to
                                achieve a predetermined or preconceived outcome.
                                (43 percent)

                                Unreasonable restrictions on the time allowed to
                                competently complete a review. (24 percent)

                         m      Influences that jeopardized continued employment
                                for reasons other than competency. (20 percent)

                         m      The organization's authority to overrule or
                                influence the monitor ' s judgment as to the ap -
                                propriate content of a monitoring report.
                                (43 percent)

                         Objectivity, independence, and report accuracy are fundamen-
                         tal requirements of Government A u d i t i n g Standards as well as
                         of any generally accepted performance criteria.


MONITORING               About half of the recommendations made as a result of LSC
DUPLICATED               monitoring dealt with accounting, financial management
THE WORK OF              systems, and internal controls--areas covered in annual
INDEPENDENT              audits by the grantees' IPAs. This duplication was costly
PUBLIC                   and, to the extent that IPAs' work was competent and met
ACCOUNTANTS              prescribed auditing standards, unnecessary.

                         The following tables, developed from our random sample of 30
                         monitoring assignments, illustrate that the monitors re-
                         viewed the same audit areas as the IPAs. For example, our
                         comparison of findings reported by IPAs and findings report-
                         ed by monitors in the "fundamental criterian3 categories
                         showed that 76.6 and 80.7 percent, respectively, of IPA and
                         monitor findings were in the same categories:




       The elements were based on LSC's fundamental criteria as published in
the 1986 LSC A u d i t and Accounting Guide f o r R e c i p i e n t s and A u d i t o r s (Audit
Guide)--the most recent guide available to grantees, IPAs, or LSC monitors.
                                      % of Total Findinns
Area Covered                          IPAs          Monitors

Cash Disbursements                    14.2             15.5
Financial Planning                    13.3             10.7
Inventory/Fixed Assets                11.2             10.2
Bank Accounts                         11.2              9.6
Payroll                               10.8              4.8
Compliance                            10.1             20.3
Management Reports                    -5.8              9.6

Total                                 76.6             80.7

Similarly, findings in internal control (management control)
categories showed that 92.4 and 96.3 percent, respectively,
were in the same categories:

                                      % of Total Findinns
Area Covered                         -
                                     IPAs           Monitors
Policies and Procedures               30.5            21.4
Management and Board
  Safeguards                          23.2             24.1
Inadequate Supporting
  Documentation                       21.1            43.3
General Ledger
  Accounting                         -
                                     17.6               7.5

Total                                 92.4            96.3
                                                      =

We noted a significant difference in the number of findings
reported. For example, in our random sample of 30 grantees,
IPAs reported 52 findings, versus 187 findings reported by
monitors.        A significant portion of this difference is
attributable to fundamentally different reporting require-
ments: IPAs apply generally accepted auditing standards
(GAAS), promulgated by the American Institute of Certified
Public Accountants (AICPA), or G o v e r n m e n t A u d i t i n g S t a n -
d a r d s , established by the GAO. The LSC monitors do not
apply these standards. Under these standards, the IPAs
report only "material" findings, whereas LSC monitoring
reports contain all findings regardless of materiality or
significance.

Grantees visited during our audit stated that they gain
little from monitoring reports toward improving their ac-
counting and financial management that they did not already
receive from IPA reports.
                PEAR management as well as several grantees, however, ex-
                pressed reservations about heavy reliance on IPA work,
                particularly in the area of compliance testing.

                We do not question the sincerity of these concerns. We
                think, however, that they highlight two key problems that
                need to be addressed and corrected so that greater reliance
                can be placed on IPA work:

                1.   IPAs are required to use LSC's outdated audit guides
                     (either a 1981 or a 1986 version). A new audit guide
                     is needed that incorporates current Govenunent A u d i t i n g
                     Standards and current program compliance requirements,
                     including any compliance requirements deemed mandatory
                     for IPA attestation, as well as the attestation pro-
                     cedures to be followed.

                2.   When IPAs are found to be unqualified or in noncom-
                     pliance with appropriate audit standards, their work
                     must be judged deficient and should not be accepted by
                     LSC or the grantees. Appropriate actions are available
                     and should be taken regarding IPAs who perform substan-
                     dard work.


FAILURE TO      LSC has not developed a grantee ranking method for use in
ESTABLISH       identifying grantees in greatest need of assistance or
MONITORING      grantees whose programs are known to provide high-quality
PRIORITIES      and effective legal services. Such a ranking method is
RESULTED IN     fundamental to a sound resource allocation process.
QrJESTIONABLE   Instead, LSC has routinely scheduled monitoring visits based
RESOURCE        on a calendar time interval--aboutevery 28 months during
ALLOCATIONS     our audit period. As a result, LSC had no way of assessing
                if about 36 percent of monitoring assignments done during
                our period of audit and costing an estimated $3.0 million
                might have been deferred significantly or avoided entirely
                for one or more cycles.

                For example, during FY 1993, LSC completed about 140 moni-
                toring reports. During this period, it issued 90 corrective
                action notices. By logical deduction, the other 50 grantees
                were being well-managed,and either had no reportable prob-
                lems, or their problems were so minor in nature as to re-
                quire no corrective action notices.        While we cannot
                conclude that these 50 assignments should not have been
                conducted, we believe that LSC needs a system that positive-
                ly identifies grantees already performing at a high compli-
                ance level as well as those with the highest probability of
                performing at a low compliance level and therefore needing
                corrective actions and specific attention.
               At an average cost per monitoring episode of about $30,021,
               LSC and grantees incurred monitoring costs of about $1.5
               million during FY 1993, or about $3.0 million for the 2-year
               period of audit, that did not result in issuing corrective
               action notices. Significantly higher benefits might have
               been achieved had these resources been applied to programs
               that needed help.

               Until LSC develops a set of quantifiable performance mea-
               sures or indicators with which to assess each grantee's
               performance, efforts to more efficiently allocate resources
               to monitoring grantees in greatest need of corrective action
               will continue to be severely hampered.


CURRENT        The annual monitoring cost to LSC and its grantees (about
MONITORING     $4.2 million) appeared to be disproportionately high
BENEFITS WiY   compared to the benefits derived. LSC, however, has no
NOT JUSTIFY    measurement criteria by which to judge the value or benefits
THE COSTS      derived from monitoring. PEAR provided the following as
               evidence of benefits resulting from the carrent monitoring
               process :

                    $307,000 in recovered costs and penalties from 22
                    grantees over a 2-year period,

                    The issuance of corrective action notices to 90
                    grantees during FY 1993, and

                    Technical assistance provided by monitors to
                    grantees.

               Although LSC grantee monitoring is a requirement and should
               not be justified on a cost-benefit basis, the recovered
               costs represent a monetary return on investment of only
               about 3.65 percent over the 2-year period. Benefits derived
               from the corrective action notices depend largely on the
               substance and materiality of the recommendations made, most
               of which can be assessed only judgmentally. PEAR management
               believed that these corrective action notices led to signif-
               icant improvements in grantee management and operations.
               Some grantees, however, characterized them in less positive
               terms--one grantee called them "silly."

               Technical assistance is not a direct requirement of the
               monitoring process. Further, the value of technical assis -
               tance was hard to measure. Nevertheless, during some
               monitoring assignments, monitors who possessed specific
               technical knowledge and skills provided direct advice and
               assistance that was much appreciated by grantees. PEAR
                  provided us with a list of suggestions and assistance given
                  by monitors during M 1993. Correspondence from some of
                  these grantees to LSC expressed sincere gratitude for this
                  kind of help. The grantees who received technical assis-
                  tance also gave higher than average ratings of monitors in
                  response to our survey questionnaire.       Most grantees,
                  however, rated the usefulness of the monitoring reports as
                  either fair, poor, or unacceptable.

                  While these indications of success were isolated, they
                  demonstrate the potential value of maintaining a cadre of
                  highly skilled individuals at LSC capable of providing
                  timely technical support to grantees, as needed. Such a
                  technical assistance function, if established, should be
                  continued contingent upon full utilization and documented
                  accomplishments. The technical assistance function should
                  be independent of the monitoring and evaluation function in
                  order to avoid compromising the independence and objectivity
                  of future compliance monitoring efforts. Compliance moni-
                  toring should, however, be linked to the technical assis-
                  tance function in such a way as to provide a means of iden-
                  tifying grantees and topic areas in greatest need of techni-
                  cal assistance.

                  Despite the absence of measurement criteria, we think the
                  benefits listed above are insufficient to warrant the high
                  cost of monitoring as currently carried out. This high
                  cost, coupled with the duplicated IPA work, high concentra-
                  tion on readily measurable compliance requirements, and
                  monitoring reports of poor quality and minimal use, lead us
                  to conclude that on-site monitoring visits are not needed
                  for this type of compliance testing.


CONCLUSIONS ON    Accomplishments from past monitoring efforts are unques-
PAST MONITORING   tionably difficult to measure. Perhaps past monitoring has
                  made grantees aware of the LSC Act's compliance require-
                  ments, and has encouraged, if not forced, grantees to at-
                  tempt to operate within those parameters. Within that
                  context, monitoring has served a useful purpose, albeit at
                  a high cost. It is now appropriate to move on to a more
                  efficient and more effective approach to monitoring and
                  evaluation.
QUALITATIVE       Although grantees were appreciative of the changed tone and
EVALUATIONS       more professional demeanor demonstrated in recent monitoring
REQUIRE POVERTY   visits, 78 percent who responded to our survey said that the
LAW EXPERIENCE    last LSC monitoring team did not possess the experience and
                  necessary qualifications to evaluate the quality and effec-
                  tiveness of their legal services.

                  Eighty-eight percent of grantees who responded said that
                  the Act's requirement of "maintenance of the highest
                  quality of service" could be somewhat to greatly improved
                  through a quality review process carried out by their
                  peers, and 92 percent said face-to-facefeedback would
                  help improve their programs. The experience and qualifi-
                  cations that grantees think reviewers should have to carry
                  out these reviews, are:




                       Managing a legal services office         89
                       Currently in poverty law                 84
                       Past poverty law experience              84
                       Accounting systems expertise             70
                       Experience other than poverty law        21
                       Managing a private practice              17

                  Individuals who grantees believe possess the experience
                  and qualifications necessary, in order of priority, are:

                                                              % of
                                                           Responses

                       Executive directors                     89
                       Senior legal services attorneys         87
                       CPAs                                    48
                       Experienced poverty law advocates       47
                       Legal services managers and staff       41
                       Private consultants                     36
                       LSC fiscal monitors                     29
                       LSC legal monitors                      11

                  We agree with grantees that quality reviewers with specif-
                  ic, recent, and relevant poverty law experience should be
                  better able to assess the quality and effectiveness of
                  legal services providers than LSC's staff monitors. This
                  conclusion is predicated on the presumption, however, that
                  quality reviews will assess quality and effectiveness
                  against a set of performance standards that LSC has yet to
                  develop .
GRANTEES ARE    To assess the feasibility and approximate cost of a
WILLING TO BE   quality review approach, we asked grantees if they would
REVIEWERS AND   be willing to both participate as reviewers and share part
ABSORB SOME     of the costs. Eighty-five percent of the respondents said
COSTS           that they would be willing to provide quality reviewers.
                Only 4 percent said they definitely did not want to
                provide reviewers.

                In addition, 78 percent of the grantees said that they
                would be willing to absorb at least part of the cost of
                participation as reviewers.

                             Costs Grantees                 % of
                       Would Be Willinn to Absorb         Grantees

                     Salary for preparation and
                       on-site quality review work           37
                     All cost categories negotiable          24
                     None of the costs                       22
                     Salary only for preparation             16
                     All salary and travel costs              1

                The level of interest shown by grantees in the peer quali-
                ty review approach is encouraging. Grantee experience and
                expertise should result in improved effectiveness of
                evaluations of service quality and performance. Grantee
                willingness to share part of the cost should help to
                assure a more cost-effective and economical process. As
                discussed in more detail in Appendix I, grantee willing-
                ness to participate and absorb some of the costs is proba-
                bly indicative of a perception that the peer quality
                process will benefit grantees in at least two ways.
                Participants in LSC's comparative demonstration project
                have reported that the reviewers have gained as much
                through the process as the grantees being reviewed.
                Further, it is highly possible that grantees anticipate
                that the reduced costs associated with a less intrusive
                monitoring process will more than offset the costs of par-
                ticipating in the process as periodic reviewers.


PERFORMANCE     LSC efforts to develop and test performance standards by
STANDARDS       which to assess the quality of legal services have only
DEVELOPMENT     recently begun. In FY 1992, Congress appropriated funds
INITIATIVES     to "conduct comparative demonstration projects to study,
                under appropriate standards and criteria, the use of
                competition in providing effective and efficient legal
                services of high quality."
                               Through combined efforts, LSC, National Legal Aid and De-
                               fenders Association, and the Project Advisory Group ob-
                               tained inputs from a variety of sources and agreed upon a
                               project design for a Comparative Demonstration Project.
                               Recognizing that no accepted measurable standards for
                               legal services performance existed, the key concept in
                               carrying out this effort was assessment by experienced,
                               qualified peer reviewers. This project appears to have
                               wide support both inside and outside LSC.

                               Five performance areas were identified for evaluation:

                                      Effectiveness in meeting the most pressing needs
                                      of the target community.

                                      Effectiveness of legal representation and other
                                      program activities intended to benefit the low-
                                      income population in its service area.

                                      Access and utilization by the target community.

                                      Effectiveness of the program operationally and
                                      institutionally.

                              a       Efficiency.

                              The project's evaluation criteria specifically cite the
                              American Bar Association's (ABA) "aspirational" standards
                              of perf~rmance,~ but go a step further by attempting to
                              develop, and quantitatively grade, measures of perfor-
                              mance .

                              Although an assessment of the project was beyond the scope
                              of our audit, the design of this project and the evalua-
                              tion approaches incorporated appear viable and well
                              planned.

                              In December 1993, the Provisions Committee of LSC's Board
                              of Directors instructed LSC staff to prepare proposed
                              procedures that reflect "principles regarding evaluation,
                              technical assistance, monitoring, and complaint investiga-
                              tion" that, among other important aspects, require:




     ' S t a n d a r d s f o r P r o v i d e r s o f C i v i l L e g a l S e r v i c e s t o the P o o r , Standing
Committee on Legal Aid and Indigent Defendants, August 1986, American Bar
Association.
                    Performance criteria for evaluation and monitor-
                    ing--using the Comparative Demonstration Project
                    as a starting point,

                    On-site visits to be based primarily on a peer
                    review model,

                    Evaluation and monitoring to be used to identify
                    how to assist grantees, and

                    Evaluation and monitoring to be used to recog-
                    nize programs that perform at a high level.

               These are all positive actions that are in agreement with
               the needs and desires of the majority of grantees. Fur-
               ther, using evaluation and monitoring to identify grantees
               in need of assistance as well as those programs already
               performing at a high level should respond to this report's
               observation that the lack of such identification has led
               to potentially unnecessary, inefficient, and ineffective
               monitoring.



RECOMMENDA-    To improve efficiency and effectiveness in meeting LSC's
TIONS AND      LSC's legislative mandate on monitoring and evaluation, we
ESTIMATED      recommend that LSC require PEAR to:
COST SAVINGS
               1.   Establish a performance measurement system to contin-
                    uously identify programs in greatest need of assis-
                    tance and invest resources disproportionately toward
                    improving those programs (rather than continuing to
                    monitor on a regular, fixed calendar schedule).
                    Continue and complete efforts to define quantifiable
                    grantee performance indicators.

               2.   Establish legal services delivery quality standards
                    that consist of broadly defined rules for measuring
                    the quality and effectiveness of legal services pro-
                    vided to the poor.

               3.   Develop proposed regulations for LSC grantees to
                    follow in defining and documenting their individual,
                    practice-specific interpretation of how LSC's legal
                    services delivery quality standards are being imple-
                    mented in their programs, and in performing periodic
                    self-assessments on how well these standards are
                    being met.
4.   Carefully review and separate LSC's compliance re-
     quirements into two categories:

     w      Requirements that are technical, objective,
            and relatively easy to measure (technical
            compliance requirements), and

            Requirements that are qualitative and thus
            require poverty law experience to assess
            and report on credibly (qualitative com-
            pliance requirements).

5.   Monitor LSC's technical compliance requirements
     through an expanded IPA role to test and report on
     compliance with these requirements.

6.   Monitor LSC's qualitative compliance requirements
     through a peer-based grantee quality review process.
     This grantee quality review process should focus on-
     site visits on determining the extent to which grant-
     ees (a) have adequately interpreted LSC's l e g a l
     s e r v i c e s d e l i v e r y q u a l i r y s t a n d a r d s in their own
     policies and procedures, (b) are fully complying with
     their own legal services d e l i v e r y q u a l i t y policies
     and procedures, and (c) evidence high quality and
     effective legal services in their work products.
     These grantee quality reviews should be conducted by
     individuals experienced in poverty law and in man-
     aging legal services programs.

7.   Develop detailed guidelines and procedures for con-
     ducting grantee quality reviews. These guidelines
     and procedures should mandate that reviews are to be
     conducted in accord with the performance standards
     contained in Government A u d i t i n g S t a n d a r d s .

8.   Define and publicize grantee quality reviewer quali-
     fications and compile a database of qualified review-
     ers.

9.   Develop a simplified standard grantee quality review
     report format and require that final grantee quality
     review reports are completed no later than 30 days
     following completion of an on-site grantee quality
     review.

10. Restructure its organization and functions to imple-
    ment and manage the restructured compliance monitor-
    ing process.
                        Revise, update, and submit to LSC's inspector general
                        for approval a new LSC grantee audit guide to be
                        issued as soon as possible and mandatory for use in
                        I P A audits of LSC's grantees. It should include the
                        requirement that the audits be conducted in accor-
                        dance with Government Auditing Standards and contain
                        detailed and specific requirements for compliance
                        testing and reporting.

                   12. Modify its existing I P A report desk review process to
                       focus on the expanded IPA compliance monitoring role.

                   A conceptual framework on how we envision LSC and PEAR im-
                   plementing these recommendations is provided in Appendix
                   11.

                  Based on accounting data provided by LSC's comptroller,
                  LSC spent $2,772,934on grantee monitoring during M 1993.
                  This included LSC personnel costs, allocated PEAR indirect
                  costs, consultant costs, and travel costs. Our estimates
                  of the expected costs of the various components of a
                  recommended revised monitoring process (the recommended
                  process is described in Appendix 11) yielded an estimated
                  total annual cost to LSC of $1,171,169. We estimate that
                  the resulting LSC cost savings from adopting and imple-
                  menting the recommended revised process will be approx-
                  imately $1,601,765per year.

                  In addition to these LSC cost savings, we estimate that
                  the revised process will, if implemented, result in aggre-
                  gate, net, annual cost savings to LSC's grantees of about
                  $447,680.

                  Appendix I contains a detailed discussion of the assump-
                  tions underlying these cost savings estimates.


LSC -AGE-       LSC management stated that it agreed with the report's
MENT'S RESPONSE findings and, in principle, with its recommendations. The
                detailed response to the draft report is in Appendix IV.
Appendix I

                         ESTIMATED COST SAVINGS


COST SAVINGS    Predicting the cost of a revised monitoring process is
ARE DIFFICULT   difficult, because of the many variables involved. These
TO PREDICT      variables include:

                    m   Number of reviewers needed per quality review

                rn      Length of on-site quality review visits

                        Extent of quality reviewer training needed.

                m       Exact division of compliance requirements be-
                        tween technical and qualitative issues.

                m       LSC's successindevelopinglegalservices de-
                        livery quality standards.

                        Grantees' success in interpreting and converting
                        the standards into objective policies and mea-
                        surable quality control procedures.

                        Extent to which grantees will be willing to
                        absorb or donate some of the costs of partici-
                        pating in the review process as review team
                        members.

                        Extent to which grantees will seek or not seek
                        additional LSC funding to cover the costs of an
                        expanded IPA role.

                        Extent to which grantees will recognize and pass
                        along to LSC the savings resulting from a less
                        intrusive quality review process.

                On the other hand, we believe that certain functions or
                categories of costs incurred in the current monitoring
                process will be significantly reduced or eliminated alto-
                gether. Following are the types of changes that we believe
                will result in cost savings if the recommended restructur-
                ing of the monitoring process (see Appendix I1 for a
                detailed description of the recommended restructuring) is
                carried out:

                        More straight-forward reports.

                m       Reduced size of on-site quality review
                        teams.
                m    Elimination of fiscal and administrative
                     monitoring duplication.

                m    Need for fewer consultants

                rn   Reduced travel costs.

                     Less expensive pre-visit preparation.


Estimates       The estimates presented in this appendix assume that the
Assume          current monitoring process will be discontinued entirely
Sweeping        and replaced with a completely revised monitoring
Changes         structure.

                Calculating the estimated or potential cost savings to LSC
                that will result from a revised compliance monitoring
                structure was a two-step process. First, we determined
                the annual cost to LSC of the current monitoring struc-
                ture. Next, we estimated (using conservative assumptions
                about various aspects of the process) the annual costs to
                LSC of the various components of the recommended revised
                monitoring structure. Subtracting the estimated total
                annual cost to LSC of the revised monitoring process from
                the annual cost to LSC of the current process yielded the
                anticipated cost savings.


LSC Net Cost    According to accounting data provided by LSC's comptrol-
Savings         ler, LSC spent $2,772,934on grantee monitoring in FY
                1993. This included LSC personnel costs, allocated PEAR
                indirect costs, consultant costs, and travel costs. Our
                estimates of the expected costs of the various components
                of our recommended revised monitoring process yielded an
                estimated total annual cost to LSC of $1,171,169. The
                resulting LSC net cost savings from adopting and imple-
                menting the recommended revised process will be approxi-
                mately $1,601,765per year.


Grantee Costs   It is important to note that this predicted $1,601,765
and Net Cost    cost savings is computed from an LSC perspective. There
Savings         will be additional costs and offsetting cost savings to
                LSC's grantees, as well. For example, grantees will incur
                some costs in performing periodic self-assessments on how
                well they are meeting their own practice-specific quality
                standards. Because these self-assessments are an integral
                part of grantee operations and management, we do not
                consider them as "additional" costs. On the other hand,
    although grantees have expressed a willingness to partici-
    pate as reviewers and absorb part of the associated costs,
    these grantees will nevertheless incur a cost for provid-
    ing this time. Again using conservative assumptions about
    the new process, we estimated that the aggregate cost to
    LSC grantees of providing reviewers will be approximately
    $520,000 per year.

On the other hand, we estimated that grantees will save,
in the aggregate, approximately $967,680 producing a net
cost savings of $447,680 per year, as a result of the
change to a simplified, less-intrusive,and more effective
monitoring process.

We did not combine the LSC costs and savings with the
grantee costs and savings, because LSC will likely not
have to fund the additional grantee costs and will not
benefit directly from the grantee savings. (This assumes
that grantees will not attempt to seek additional LSC
funding as a quid pro quo for agreeing to provide quality
reviewers and that LSC's grantees will not readily recog-
nize or be willing to pass along to LSC the cost savings
that will result.)

Finally, we did not attempt to estimate certain addition-
al, less tangible savings that we think will be realized
if the recommendations of this audit are implemented.
These additional savings will stem from the following
factors :

=       Improved grantee performance resulting from the in-
        creased emphasis on quality and effectiveness of
        legal services.

        Improved relations between LSC and grantees resulting
        from the less intrusive approach to compliance moni-
        toring.

m       More efficient use of technical assistance resources
        due to the use of quantifiable performance indicators
        to identify grantees in greatest need of assistance.

Although these additional cost savings cannot be quanti-
fied, it is very possible that they will be considerably
more significant than the cost savings that we did attempt
to estimate.

The balance of this appendix presents the following

m       Key assumptions.
                        m    LSC's total costs of the current monitoring process.

                             LSC's total costs of the revised monitoring
                             process.

                             Net cost impact to LSC of the revised monitoring
                             process.

                        =    Net cost impact to LSC grantees of the revised
                             monitoring process.


KEY                     In recommending sweeping changes from the past monitoring
ASSUMPTIONS             methods, it is necessary to make several assumptions about
                        how the new process will be carried out and about how
                        grantees will respond to these changes. Following are the
                        key assumptions that we have made in these areas and how
                        we expect that these assumptions will affect the resulting
                        costs.


Reduced                 I f current report contents and findings are an accurate
Honitoring              reflection of the current monitoring process' on-site
Team S i z e            workload allocation, then it appears that 75 percent or
                        more of on-site effort is devoted to accounting and admin-
                        istrative compliance issues. (Grantee feedback regarding
                        the concentration of current monitoring efforts supports
                        this estimate.) It is reasonable to assume, therefore,
                        that expanding the IPA role to include testing of techni-
                        cal compliance matters, eliminating the duplication be-
                        tween IPA and LSC monitoring work, and increasing the
                        emphasis on qualitative matters will result in a net 50-
                        percent reduction in on-site monitor hours. Consequently,
                        we think that the quality review process can be accom-
                        plished with about half as large a team as used under the
                        current monitoring process.

                        Based on a random sample of monitoring episodes conducted
                        during our audit period, the average monitoring team con-
                        sisted of 4.9 people who spent an average of 4.6 days on
                        site. Our cost estimates, therefore are based on an
                        average team size of 2.5 people and an average on-site
                        duration of 5 days.


F r e q u e n c y and   If a baseline cycle of requiring regular quality reviews
Number of               once every three years is established, then approximately
G r a n t e e Quality   110 regular reviews would be conducted per year. Some
Reviews                 grantees may be required to have accelerated reviews (in
                cases where significant quality deficiencies are found,
                for example). Hence, it is reasonable to assume that
                between 110 and 150 reviews per year would be conducted.
                We estimate that approximately 20 grantees per year (about
                18 percent of those reviewed) will have quality deficien-
                cies significant enough for LSC to require an accelerated
                (i.e. the following year) review. Consequently, our
                estimates are based on an average of 130 grantee quality
                reviews per year.

                During the 22-month period from October 1991 through July
                1993, PEAR conducted 251 regular monitoring assignments
                and 27 followup assignments. Based on PEAR estimates of
                the average duration and team size for a followup visit, a
                followup visit consumes approximately one-fifth of the
                resources of a regular visit. Hence, we estimated that
                PEAR conducted the equivalent of about 140 regular moni-
                toring visits per year.


Grantee-        Of the 145 grantees responding to our survey, 85 percent
Provided        indicated that they will be willing to provide personnel
Quality         to conduct quality reviews, and 78 percent said that they
Reviewers       will absorb some or all of the associated costs. Thirty-
                seven percent indicated that they will be willing to
                absorb the labor costs of both preparation and on-site
                review work. We think that it is reasonable to assume
                that LSC will be able to enlist the support of a suffi-
                cient number of grantees to staff the majority of quality
                reviews with grantee personnel and grantee-donated labor
                costs. We estimate that consultant reviewers will still
                be needed to staff some of the review teams. Our cost
                estimates are based on the assumption that 80 percent of
                the grantee quality reviews will be staffed with grantee-
                provided reviewers. As the process evolves and becomes
                generally accepted by grantees, it is likely that the pool
                of grantee-provided reviewers will expand.


Effect of       A key assumption is that the grantees participating in the
Grantee Costs   process will not attempt to increase their LSC grant
And Savings     budgets in return for this participation. We think that
                this is a reasonable assumption to make for two reasons.
                First, a grantee willing to provide personnel to serve as
                quality reviewers will likely recognize that such partici-
                pation will yield benefits to that grantee's own organiza-
                tion by giving the reviewers an intensive exposure to
                LSC's qualitative compliance requirements and by providing
                an exposure to other organizations' methods of operation.
                Second, as noted previously, grantees may recognize that
                 they will realize significant cost savings as a result of
                 both the reduction in the intrusiveness of the monitoring
                 process and the elimination of the duplication between the
                 IPA audit work and the monitoring work. (We have assumed,
                 however, that grantees will not readily recognize or be
                 willing to pass these savings along to LSC during the bud-
                 geting process.)

                 Finally, we assume that grantees      readily recognize
                 and seek increased LSC funding to cover the increased
                 costs connected with the expanded IPA audit process.


LSC'S TOTAL      Our analysis (see Exhibit 1-1) of PEAR'S FY 1993 expenses
COSTS OF THE     indicates that the current annual cost to LSC of the
CURRENT          existing monitoring process is summarized as follows:
MONITORING
PROCESS
                                    LSC Labor
                                       and
                 PEAR Direct         Indirect Consulting   Travel          Total
               Cost Objective         Costs     Costs      Costs           Costs

               Monitoring:
                 Pre -visit     $    392,684   $ 55,872               $     448,556
                 On-site             612,591    279,362    $412,749       1,304,702
                 Reporting           907,931    111,745                   1.019.676

               Total

                The total cost to LSC of the current monitoring process is
                therefore $2,772,934. Our expectation is that none of
                these costs will be incurred if the recommended, revised
                process is implemented. Instead, there will be other
                costs involved in overseeing the expanded IPA role and
                administering the grantee quality review process.


LSC'S TOTAL     The estimates needed in determining LSC's total revised
COSTS OF THE    compliance monitoring cost fall into the following
REVISED         categories:
MONITORING
PROCESS                Consultant costs
                 m     Travel costs
                 m     Additional IPA audit costs
                       Additional grantee costs to support the IPA
                       audits
                          Additional costs of LSC desk reviews of IPA
                          reports
                          LSC administration of the quality review process

                    Our estimates of these costs are explained in the follow-
                    ing sections.


Consultant          Based on the assumption that an average of 130 reviews per
Costs               year will be needed, consultant costs are estimated as
                    follows:

                         130 reviews per year with an average team size of 2.5
                         reviewers will require 325 reviewers.

                         If 20 percent of these reviewers are paid consul-
                         tants, and a quality review takes 8 days to complete,
                         at an average consultant daily rate of $250,5 then
                         the needed consultant cost would be $130,000 [325
                         reviewers x 20% x 8 days x $2SO/day].


Travel Costs        Based on the assumption that an average of 130 reviews per
                    year will be needed, travel costs are estimated as fol-
                    lows :

                         Per PEAR'S FY 1993 budget, the average travel cost
                         per review was $2,948 [$412,749 divided by 140 moni-
                         toring episodes].

                    m    If the review team size is reduced by SO percent,
                         then the travel costs per review would be reduced
                         correspondingly.

                         Hence, the total travel cost associated with 130
                         reviews should be approximately $191,620 [$2,948 per
                         review x 50% x 130 reviews].


Additional          The expanded IPA role will result in increases to the cost
IPA Audit           of IPA audits. We estimate that the time needed for
Costs               expanded compliance testing will be approximately 12 hours
                    per audit. At an average labor cost of approximately $50
                    per hour, this will result in an increase of $600 per


       LSC's current consulting agreements provide for daily rates ranging from
$150 to $250 for a maximum 8 days per monitoring assignment. To be conservative,
we have estimated these costs using the highest consultant rate currently being
paid by LSC for monitoring.
                 audit. These expanded compliance audits will be conducted
                 annually, resulting in additional costs of $193,800 per
                 year [$600 x 323 grantees].


Additional       The expanded IPA role will also result in increases in the
Grantee Costs    cost of grantee participation in these audits. Additional
to Support       grantee effort will be needed to support the expanded
the IPA          audit work. We estimate that grantee document gathering
Audits           to support the IPA work will consume about 25-percent of
                 the effort required by the IPAs to review and test the
                 information. Hence, additional grantee costs to support
                 each audit would be approximately $150 per audit [$600 x
                 25%] or about $48,450 for all 323 grantee audits per year.


Additional       We estimate that the cost of the desk reviews of grantee
Costs of         audit reports will increase by about $150 per report, or
LSC Desk         about $48,450 for all 323 reports. (As shown in Exhibit
Reviews of       1 - 1 , LSC currently spends approximately $120,577 on desk
IPA Reports      reviews: our $48,450 estimate would be more than a 40-
                 percent increase.)

                 We do not think that the expanded IPA role will result in
                 an increase in the cost of Office of Inspector General
                 quality assurance reviews of IPA workpapers. Any addi-
                 tional costs of reviewing the additional compliance test-
                 ing should be offset by the effect of improved IPA work
                 resulting from adherence by the IPAs to the updated audit
                 guide .


LSC Admin-       Costs of overseeing the new quality review process are the
istration of     most difficult to predict. These costs will relate to a
Quality Review   variety of developmental and transitional tasks as well as
Process          ongoing management and oversight functions. Following is
                 a list of the key functions that will be needed and esti-
                 mates of the effort [in terms of full time equivalent
                 (FTE) personnel] required for each function. Ve have
                 estimated both the initial developmental effort required
                 as well as the ongoing or maintenance effort that will be
                 needed on an annual basis.
                                                       FTEs
                                            Developmental Ongoing
        Administrative Task Area                Effort    Effort

Separating the universe of LSC compli-
ance requirements into the new
bifurcated structure.                           0.25          0.10

Maintaining a codified set of authorita-
tive interpretations of all compliance
requirements.                                   0.50          0.10

Defining and revising LSC quality
assurance standards.

Developing and maintaining a comprehen-
sive set of guidelines describing how
quality reviews shall be conducted.             3.00          0.75

Defining quality reviewer qualifications.       0.20          0.10

Developing a revised grantee audit guide.       0.50

Recruiting quality reviewers and main-
taining a data base of quality reviewer
information.                                    2.00          0.75

Appointing and approving quality review
teams.

Providing technical assistance to quality
reviewers during on-site reviews.

Accepting quality review reports
and approving or rejecting grantee
corrective action plans.

Defining and implementing sanctions
for grantees receiving qualified or
adverse quality review results.

Conducting training for quality
reviewers.

Maintaining objective grantee
performance indicator data with
which to rank grantees in various
performance categories.

Other unanticipated tasks.

Total
                 As shown in Exhibit 1 - 1 , based on PEAR'S FY 1993 expenses
                 and hours worked, the full cost per FTE was $59,452.
                 Based on this, we estimate that the transitional cost for
                 the first year of the revised process should be approxi-
                 mately $784,766 113.20 FTEs x $59,452.per FTE]. The
                 ongoing cost once the process has been fully implemented
                 will be approximately $558,849 [9.40 FTEs x $59,452 per
                 FTE] .


NET COST         Based on the key assumptions and other analysis discussed
IMPACT TO LSC    above, the net cost impact on an ongoing, annual basis of
OF THE REVISED   the revised monitoring approach is summarized as follows:
MONITORING
PROCESS
                 Total Cost of the Current
                 Monitoring Process

                 Costs of the Revised
                 Monitoring Process:
                    Consultant Costs                $130,000
                    Travel Costs                     191,620
                    Additional IPA Audit Costs       193,800
                    Additional Grantee Costs
                      to Support the IPA Audits       48,450
                    Additional Costs of LSC Desk
                      Reviews of IPA Reports          48,450
                    LSC Administration of the
                      Quality Review Process         558.849

                 Total Cost of the Revised
                 Monitoring Process

                 Net Cost Savings to LSC
                 After Developmental Effort


NET COST         As discussed previously, the recommended revised process
IMPACT TO LSC    will result in additional grantee costs as well as
GRANTEES OF      significant savings. We did not factor these costs
TEIE REVISED     (except for the addi~ionalcosts related to the expanded
MONITORING       IPA role) or savings into the above estimate of LSC net
PROCESS          cost savings, because we do not expect that either the
                 costs or savings will likely be borne by or credited to
                 LSC .

                 Although a significant percentage of grantees have indi-
                 cated that they will provide personnel to serve as quality
reviewers without charging LSC for the labor costs in-
volved, grantees will incur a direct cost for performing
this important role. Using the same assumptions described
previously for estimating the cost of consultant review-
ers, we estimate that the aggregate cost to grantees of
providing reviewers will be as follows:

     130 reviews per year with an average team size of 2.5
     reviewers will require 325 reviewers.

m    If 80 percent of these reviewers are provided by
     grantees, and a quality review takes 8 days to com-
     plete, at an average daily labor rate of $250 (this
     assumes the same daily rate as consultants), then the
     grantee labor costs will be approximately $520,000
     [ 3 2 5 reviewers x 80% x 8 days x $250/day].

Based on estimates provided by grantees in response to our
survey, the average costs that grantees expend in connec-
tion with the current monitoring process before, during,
and after the on-site visit are as follows:

                                  Grantee
                                  Cost Per
                                 Monitoring
     Monitorine Phase              Episode

     Pre-visit
     On-site
     Reporting

     Total

The recommended revised process should be less intrusive
(and hence less costly) for grantees for all three phases:
pre-visit, on-site, and report response. The grantees'
costly pre-visit documentation efforts ($3,343 per epi-
sode) should be greatly reduced. We estimate that a more
straight-forward and simplified pre-visit document request
will reduce these costs by about 75 percent. On-site
grantee participation ($5,082 per episode) will still be
required, of course, but should not be as extensive or
intensive. We estimate a 50-percent reduction in these
costs. Grantee costs of responding to and correcting the
monitoring reports ($1,789 per episode) should be reduced
by at least 90 percent. Based on these assumptions, the
grantee cost of a quality review will be approximately as
follows :
                              Revised Grantee
                                  Cost Per
                                 Monitoring
     Monitorina Phase             Episode

     Pre -visit
     On-site
     Reporting

     Total

The net cost savings to grantees resulting from this less
intrusive quality review would therefore be $6,658 per
review [$10,214current cost - $3,556 revised cost]. With
140 reviews being conducted per year under the current
process versus an estimate of 130 reviews per year for the
revised process, this will result in an aggregate grantee
cost savings of approximately $967,680 per year [($10,214
x 140) - ($3,556 x 130)1 .
The net cost savings to grantees will be approximately
$447.680 [$967,680- $520,000].

If this grantee net cost savings is combined with the
estimated net cost savings to LSC, the total estimated
cost savings to the legal services delivery system will be
approximately $2,049,445per year or a savings of about 49
percent of the combined cost to LSC and grantees of the
current monitoring process.
       -s.<
       , . A
               3
                        s  see
                        - w b Q I
                        = y q y
       * ?
         ?              z s z g
                        G C j N I D d
                        n o - m
       ,,
       <in
                        ' ?'5--9
                        x a m m
       2 0              %ZZK-
       z v              *-----
                                        H



                        ~               ~            W   *
                        , - m w
       < L              ?--??
       aU V8            z
                        ;;*'-m
                                S       ~        S
                                        H



       - 2              5 .m
                        d
                           5 . 2w
                                -
       $v -2            y m - y y
                        I - - - -
       ;;;:
       2k cg
                        m - I - m
                        N W W a !
                        *               -
                                        H


       c
                            n           m
       -.-.
        -      v
                            w
                            '
                            I
                            -
                            N
                                        w
                                        I
                                        -
                                        N
                                         .




       2 58
       >                    w           w
                                        0




       U                N N - m
                        - . S w I -
       F                *. ? '10:
       -- g
       - ? A
       L       h
                        ;p=g
                        * m - w
                                        H
       z
.-,z
g- G
$
i-
   5 -                  G x m x
                        I - X I - C C I
                        ? y q x .
                        - N " l -
2-=
                        ""-$%
ggz
n
C<?    -                2               0



+-"
U

2c -
   52
g              =-                       U
                                        z
z.
c-
V

 -<
 .-,
               -
               g
               I=
                                        -
                                        5
                                        "
                                        Z
               <
 -.<                                    5
                                        --..>-
               i!
               Y
  -            1
                                        .-3




               <,"
--
I
;-
"
               :
               3 x5
                                    52
                                    w a

--
               5 9
               +z                   2 u,
                                    4   -
<
               2%   "       Yss
                            -           n
                                                             4
--
                                                                    0
2              S t Z L F                                     2-
                                                             9 z - sz - .
-:
<
               <r>-?C:
               2 z . - , * g                                 z$5gz
5
               1-<7zc
                    r 2 z r
                    0
                                                             sass-
                         MODEL FOR A REORGANIZED
                        LEGAL SERVICES CORPORATION
                        GRANTEE MONITORING PROCESS


                     This appendix presents a suggested framework for a reorga-
                     nized LSC grantee monitoring process that will implement
                     most of the recommendations contained in our audit report.
                     Our intent is to highlight and explain a concept rather
                     than suggest specific details. Where details are includ-
                     ed, they are intended as examples and options for consid-
                     eration rather than specific recommendations. Experienced
                     LSC personnel should be called upon to develop the stan-
                     dards, policies and procedures, performance indicators.
                     and other details needed for effective implementation.

                    The concepts discussed in this appendix are derived from
                    existing systems that experience has shown are effective
                    and economical in meeting objectives similar to those of
                    LSC's grantee monitoring process. Federal executive
                    branch agencies have, since 1981, been required to estab-
                    lish systems of management controls, perform vulnerability
                    assessments, and conduct internal control reviews. This
                    Federal requirement is mandated by the Federal Managers'
                    Financial Integrity Act and explained and implemented
                    through Office of Management and Budget (OMB) Circular A-
                    123, I n t e r n a l Control Systems. OMB Circular A-123 is. in
                    turn, structured in accord with fundamental audit theory
                    as defined and developed by the Auditing Standards Bosrd
                    of the AICPA. LSC's monitoring process is, in the generic
                    sense of the term, an audit process. Thus, these concepzs
                    are relevant.

                    More specifically, however, we have adapted to LSC's needs
                    the peer review and quality review approaches developed
                    and implemented successfully by the AICPA over the pas: 20
                    years.' AICPA's goal in developing and refining these
                    processes has been to ensure that CPA firms provide the
                    highest quality and most effective professional services
                    possible. We think that this quality review approach will
                    also work well for LSC.




       A detailed description of the AICPA peer and quality review processes can
be found in the AICPA D i v i s i o n f o r C P A Firms Peer Review Manual.
               Many of the concepts and ideas developed as part of LSC's
               Comparative Demonstration Project as well as the standards
               contained in the American Bar Association's (ABA) Stan-
               dards for Providers of Civil Legal Services to the Poor
               are relevant to and entirely compatible with the framework
               we suggest.

               Our audit's data collection phase indicates that grantees
               generally favor the type of approach suggested in this
               appendix. Some LSC managers have expressed reservations
               about departing from the status quo, while others have
               given these suggestions a qualified endorsement.


OVERVIEW       Monitoring grantees to ensure that they are complying with
               requirements of the LSC Act and regulations is an impor-
               tant and necessary process. LSC's current method of
               monitoring these requirements is to try to monitor all
               requirements through comprehensive on-site monitoring
               reviews by teams of LSC staff and outside consultants.


Different      Our audit indicates that LSC's compliance requirements can
Compliance     be separated into two categories:
Requirements
Warrant             Requirements that are technical, objective, and
Different           relatively easy to measure (technical compliance
Monitoring          requirements), and
Approaches
                    Requirements that are qualitative and thus re-
                    quire poverty law experience to assess and re-
                    port on credibly (qualitative compliance
                    requirements).

               With this "bifurcation" in mind, we recommend dividing the
               monitoring process into two functions.


Monitoring     The first monitoring function deals with assuring that
Technical      grantees comply with the technical compliance require-
Compliance     ments. We think that this aspect of monitoring can be
               achieved via a two-step process. First, grantees should
               be required to (a) perform an annual self-assessment of
               their compliance with these (pre-defined by LSC) technical
               requirements; and (b) sign a certification of compliance
               with these requirements. Second, each grantee should be
               required to engage an IPA to perform (in addition to the
               required annual financial statement audit) an attestation
                              engagement (in accordance with Government A u d i t i n g S t a n -
                              dards' and the S t a t e m e n t s on Standards f o r A t t e s t a t i o n
                              Engagementsx) designed to test and report on the veracity,
                              accuracy, and completeness of the grantee certification of
                              compliance. This expanded IPA role will require issuance
                              of an updated LSC audit guide containing specific guidance
                              and requirements that the IPAs will follow. It will also
                              require careful oversight by LSC to assure that IPAs
                              understand and are following these expanded requirements.
                              We think that significant cost savings will result from
                              this revised technical compliance monitoring approach.


Monitoring                    The second monitoring function deals with the qualitative
Qualitative                   compliance requirements. Perhaps the principal qualita-
Compliance                    tive compliance requirements are in Section 1007 of the
                              Act. That section establishes that LSC shall ensure that
                              grantees provide high quality and effective legal services
                              to the poor. This has been and will continue to be a
                              difficult compliance requirement to assess, because quali-
                              ty and effectiveness (by definition subjective concepts)
                              are difficult to measure. Without predefined parameters
                              against which quality and effectiveness can be measured.
                              any attempt to assess and report on an organization's
                              quality and effectiveness of performance will only lead Eo
                              contention and unresolvable debate.

                              We think that a two-level quality framework setting forth
                              predefined grantee quality assurance parameters must be
                              designed and put in place before grantee quality can be
                              monitored effectively.

                                     First, LSC must establish program-wide legal services
                                     delivery quality standards that consist of broadly
                                     defined rules for the measurement of quality and
                                     effectiveness with respect to the provision of legal
                                     services to the poor.9 These standards should focus
                                     on attributes or characteristics that LSC's experi-
                                     ence has shown will, when possessed or applied by


       ' S t a n d a r d s for A u d i t of Governmental O r g a n i z a t i o n s , Programs. A c t i v i z l e s .
and F u n c t i o n s , promulgated by the U.S. General Accounting Office.

       *   Promulgated by the American Institute of Certified Public AccountanEs

        Webster ' s defines a standard as "something established by authority.
custom, or general consent as a model or example: c r i t e r i o n ; something set up and
established by authority as a rule for the measure of quantity, weight, exEent,
value, or quality."
               grantees, result in higher quality and greater effec-
               tiveness of legal services.

               Second, grantees should be required to define and
               document their individual, practice-specific inter-
               pretation of how these standards are being imp1emen:-
               ed in their program. These specific grantee legal
               services delivery quality policies and procedures
               will consist of the measurable practices and review-
               able operational procedures that grantee management
               and staff must follow on a day-to-day and case-by-
               case basis in order to achieve the broader LSC quali-
               ty standards.

          Once this quality framework is established and implemented
          by LSC and its grantees, monitoring the qualitative com-
          pliance requirements can be achieved with a minimum of
          contention through periodic grantee qualicy reviews.

          Although it is difficult to predict with precision the
          cost savings that will result from a change to this grant-
          ee quality review process, we are convinced that this will
          be a more economical and efficient way to promote compli-
          ance with LSC's qualitative requirements. Part of the
          difficulty in comparing costs of the current process with
          costs of this recommended process stems from the fact
          that, based on our audit analysis, relatively little focus
          is placed on this type of qualitative assessment by the
          current process.


Grantee   The grantee quality review process should be desig~edto
Quality   assess three aspects of grantee performance:
Reviews
              How well the grantee has interpreted LSC's legal
              services delivery quality standards via the
              grantee's quality policies and procedures. This
              assessment must be based on an understanding of
              the local program's constituent characteristics
              and needs and the grantee's organizational
              structure and characteristics.

              The extent to which the grantee is adhering to
              its quality policies and procedures. This as-
              sessment will be based on testing (primarily
              through a review of documentation and interviews
              of personnel) of each policy and procedure.
                  Specific evidence of the effectiveness or inef-
                  fectiveness of the grantee's quality policies
                  and procedures. This assessment must be based
                  upon a review of a sample of case files.

             A key characteristic of this grantee quality review pro-
             cess is that it will have a foundation of pre-established
             criteria (LSC's legal services delivery quality standards
             and the grantee's own quality policies and procedures).
             These criteria will focus the reviews and should minimize
             arguments regarding whether or not quality deficiencies
             exist.

             For this process to work effectively and be approached
             with a positive attitude by grantees, we think that the
             grantee quality reviewers must be individuals with recent,
             relevant poverty law experience.


Simplified   Another key characteristic of this grantee quality review
Reporting    approach is a streamlining of the reporting process. We
             think that a grantee quality review report should be brief
             and finalized quickly following a review. The report
             should state simply and concisely that:

             m    The grantee is in substantial comvliance with LSC's
                  legal services delivery quality standards and the
                  grantee's own quality policies and procedures; or

             m    The grantee is in substantial comvliance with LSC's
                  legal services delivery quality standards and the
                  grantee's own quality policies and procedures, except
                  -
                  for certain noted deficiencies; or

                  The granteeisnotinsubstantialcom~liancewith
                  LSC's legal services delivery quality standards and
                  the grantee's own quality policies and procedures,
                  because of certain noted deficiencies.

             An effective grantee quality review report should consist
             of a one-page report containing the overall conclusion
             accompanied by a brief letter of comments containing
             concise descriptions of any deficiencies noted. (See
             Exhibit 11-1 for examples of suggested reporc and letter
             of comment formats.) A final report along with the
             grantee's response and plan for corrective action should
             be submitted to LSC no later than 30 days after completion
             of the on-site review.
LSC Management  Two related aspects of this suggested model for a
and Performance reorganized LSC grantee monitoring process are (1) a
Measurement     redefined role for PEAR as the manager of the reorganized
                process, and (2) a quantifiable performance measurement
                  system with which to allocate scarce monitoring and tech-
                  nical assistance resources and recognize superior and
                  inferior operational performance by grantee organizations.

                  The remainder of this appendix will discuss these topics
                  in more detail. These discussions are intended to provide
                  a better illustration of the concepts we are suggesting
                  and should not necessarily be viewed as suggestions of
                  final details or the only or best means of implementing
                  these concepts.


MONITORING        Most objections to our recommendation to monitor technical
TECHNICAL         compliance as part of the annual financial and compliance
COMPLIANCE        audit process stem from dissatisfaction with or lack of
REQUIRIE41ENTS    confidence in the quality of IPA work under the present
THROUGH AN        method of operation. We think this skepticism is under-
EXPANDED          standable but misplaced. IPAs are currently operating
IPA ROLE          under outdated standards and audit guides. An action that
                  is urgently needed and long overdue is the revision of the
                  LSC Audit and Accounting Guide.

                  An updated audit guide should be issued and made mandato-
                  ry. This updated guide should require adherence to Gov-
                  ernment A u d i t i n g S t a n d a r d s and contain detailed and
                  precise requirements for LSC-program-specificcompliance
                  testing and reporting. In order to fit within the current
                  framework of public accounting professional standards, the
                  guide should stipulate that grantee management is respon-
                  sible for ensuring compliance with LSC's rules and regula-
                  tions and that the IPA's role is to attest to whether or
                  not management is fulfilling this responsibility.

                  Once an updated audit guide is developed, LSC will need to
                  carefully monitor and manage the guide's implementation on
                  an ongoing basis. LSC should require PEAR to (1) continue
                  to perform "desk reviews" of all IPA reports; (2) reject
                  and refuse to pay for audits found to be substandard; and
                  (3) refer substandard audits to the OIG for followup
                  action. The OIG should continue to (1) perform "quality
                  assurance reviews" of IPA workpapers whose reports reflect
                  potential substandard work; (2) perform quality assurance
                  reviews of IPA workpapers on a random sample basis; and
                  (3) make referrals both to state accountancy boards and
                  the AICPA in cases where reviews disclose substandard IPA
audit work. [These desk review and quality assurance
review processes are consistent with the policies and
procedures being used by the President's Council on Integ-
rity and Efficiency (PCIE), and the PCIE has well-estab-
lished processes in place in other Federal agencies for
managing this oversight function.]

LSC personnel and others also emphasize that there are
many compliance requirements that may a m e a r to be easily
and objectively assessable, but that (1) there may be
varying interpretations as to what the requirements actu-
ally mean, and (2) these requirements may also have a
qualitative dimension. Regarding this. first concern, we
think that compliance requirements should not be monitored
unless and until LSC has made definitive and authoritative
interpretations of their meaning. Regarding the second
concern, we do not think that an IPA's testing for techni-
cal compliance with a requirement should be viewed as
precluding the subsequent or concurrent monitoring of that
requirement's qualitative aspect as part of the grantee
quality review process.

For example, grantee governing boards are required to be
composed of at least one-third client-eligible members.
Provided that a definitive interpretation of this require-
ment exists, measuring technical compliance with it should
be relatively straight-forward and does not require spe-
cialized legal expertise. The implied qualitative aspect
of this requirement (that these client-eligible board
members should attend meetings, contribute to discussions
and decisions, and help the grantee better serve its
constituency) can and should be addressed as part of the
grantee quality review process.

We think that expanding the IPA role to address technical
compliance monitoring will yield significant cost savings.
At a minimum, it will eliminate the current costs associ-
ated with the duplication by LSC monitoring teams of areas
also addressed by IPAs, and it will also eliminate the
travel costs associated with LSC monitoring teams perform-
ing technical compliance-related tasks. Further (and even
more difficult to quantify) savings should also accrue
from allowing the grantee quality reviewers to focus their
attention exclusively on quality-related matters.
LSC LEGAL   LSC's in-progress Comparative Demonstration Project should
SERVICES    provide most (if not all) of the experience and insight
DELIVERY    needed to define legal services delivery quality
QUALITY     standards. The goal in defining standards is to identify
STANDARDS   causal characteristics that increase the propensity for
            positive outcomes. (For example, if past reviews of
            poverty law practices have indicated that when no super-
            visory attorney review of motions and pleadings took
            place, only 35 percent of cases had successful outcomes;
            whereas when supervisory reviews took place, the case
            outcome success rate was 80 percent, then a corresponding
            l e g a l s e r v i c e s d e l i v e r y q u a l i t y standard might be: "LSC
            grantees should establish policies and procedures requir-
            ing supervisory attorney reviews of motions and plead-
            ings." )

            We offer the following list of examples & to illustrate
            the level and nature of standards that LSC should seek to
            define. The combination of (a) LSC's experience in re-
            viewing poverty law practices, (b) knowledge gained from
            working with the Comparative Demonstration Project's
            "criteria" and "indicators," and (c) the elements con-
            tained in the ABA Standards f o r P r o v i d e r s o f C i v i l Legal
            S e r v i c e s t o t h e Poor will enable an optimal set of LSC-
            specific standards to be developed. Several of the fol-
            lowing example standards were adapted directly from the
            AICPA's Statement on Q u a l i t y Control Standards Number I .

                  Ethics. Policies and procedures should be es-
                  tablished to provide the grantee organization
                  with reasonable assurance that persons at all
                  organizational levels adhere to the ethical
                  standards of the legal profession.

            m     Assienine Personnel to Cases. Policies and
                  procedures for assigning personnel to cases
                  should be established to provide the grantee
                  with reasonable assurance that work will be per-
                  formed by persons having the degree of technical
                  training and proficiency required in the circum-
                  stances.

                  Consultation. Policies and procedures for con-
                  sultation should be established to provide the
                  grantee with reasonable assurance that personnel
                  will seek assistance, to the extent required,
                  from persons having appropriate levels of knowl-
                  edge, competence, judgement, and authority.
    Supervision. Policies and procedures for the
    conduct and supervision of work at all organiza-
    tional levels should be established to provide
    the grantee with reasonable assurance that the
    work performed meets LSC's legal services deliv-
    ery quality standards.

    Recruiting and Hiring. Policies and procedures
    for recruiting and hiring should be established
    to provide the grantee with reasonable assurance
    that those employed possess the appropriate
    characteristics to enable them to perform compe-
    tently.

    Professional Development. Policies and proce-
    dures for professional development should be
    established to provide the grantee with reason-
    able assurance that personnel will have the
    knowledge required to enable them to fulfill
    responsibilities assigned.

8   Advancement. Policies and procedures for ad-
    vancing personnel should be established to pro-
    vide the grantee with reasonable assurance that
    those selected for advancement will have the
    qualifications necessary for fulfillment of the
    responsibilities they will be called upon to
    assume.

    Acceptance and Continuance of Cases. Policies
    and procedures should be established for deter-
    mining which cases to accept to maximize the
    likelihood of meeting the grantee's most press-
    ing constituent needs in compliance with the
    Legal Services Corporation Act. Other policies
    and procedures should be established defining
    circumstances in which representation should be
    discontinued.

m   Strate~ic
          -   Planning. Policies and procedures
    should be established to provide reasonable
    assurance of making optimum use of resources to
    identify and address the most pressing legal
    representation needs of the grantee's constitu-
    ent community.

    Outreach. Policies and procedures should be
    established to provide reasonable assurance that
    the maximum number of client-eligible persons in
    the grantee's geographic area have access to and
                     are made aware of the existence of and proce-
                     dures for using the grantee's services.

                     Case Management. Policies and procedures should
                     be established to provide reasonable assurance
                     that cases are assigned on a timely basis, that
                     staff workloads are reasonable and balanced, and
                     that all case deadlines are met.

                     Inspection. Policies and procedures for inspec-
                     tion should be established to provide the grant-
                     ee with reasonable assurance that the procedures
                     relating to the other elements of LSC's legal
                     services delivery quality standards are being
                     effectively applied.

                Again, it is not our intent in presenting the above exam-
                ples to imply that these are the standards that LSC should
                adopt. Rather, we present these examples to indicate the
                nature and conceptual level of standards that will provide
                guidance to grantees to enable them to achieve LSC's
                quality and effectiveness goals.


GRANTEE LEGAL   LSC personnel and others have impressed upon us the
SERVICES        importance of allowing individual grantees the latitude to
DELIVERY        establish organizational structures and define operating
QUALITY         procedures that enable them to best address the needs of
POLICIES AND    their constituents. Grantees' sizes, structures,
PROCEDURES      geographic and demographic characteristics. predominant
                legal practice areas, and extent of private attorney
                involvement differ significantly. No single set of legal
                services delivery quality policies and procedures can
                possibly serve all grantees.

                With LSC's legal services delivery quality standards as a
                framework, grantees should be required to develop specific
                policies and procedures that will enable them to adhere to
                these standards in such a way that quality and effective-
                ness of legal services in their area are maximized.
                (Most, if not all, grantees already have documented admin-
                istrative policies and procedures. Consequently, a revi-
                sion of these existing procedures to align them with the
                LSC legal services delivery quality standards should not
                be an overly burdensome task.) Policies and procedures
                should be as specific and as innovative as possible. They
                should be designed to optimize the grantee's resources,
                maximize the effect of the grantee's positive attributes.
                and minimize the effects of any negative attributes.
For example, in translating LSC's legal services delivery
quality standard on recruitment and hiring, a grantee's
quality policies and procedures would probably include
specific steps designed to establish and maintain rela-
tionships with law schools in or near its area and with
state or local bar organizations. Similarly, with regard
to consultation, the policies and procedures would proba-
bly identify the specific consulting resources to which
the grantee has access, the specific circumstances under
which these consulting resources should or must be uti-
lized, and how such consultation should be documented.
Such consultation policies and procedures would probably
be significantly different for a large, single-office,
urban grantee than they would be for a smaller, multi-
office, rural grantee.

An important element of the grantee-specific policies and
procedures must be the definition of the grantee's re-
quirements for documenting adherence to the procedures.
For example, policies and procedures related to supervi-
sion would probably include case file formats and document
control formats that have supervisory sign-off blanks
where mandatory supervisor or second attorney reviews have
been deemed essential. Similarly, policies and procedures
related to professional development and advancement would
probably stipulate personnel file content requirements and
evaluation documentation formats.

These documentation requirements are a critically impor-
tant element of the total grantee quality review frame-
work. They are essential because they will permit an
objective determination to be made of whether or not a
grantee is actually conforming to its established policies
and procedures. For example, if a grantee's policies and
procedures require a supervisory attorney review of all
pleadings, and the grantee quality reviewer finds that for
half of the case files he or she reviews no supervisory
review took place, then some type of corrective action
would unarguably be needed. The ensuing discussion might
revolve around whether the grantee should relax its policy
for certain types of cases; or it might revolve around the
need for stricter grantee controls to enforce the esiscing
policy. In either event, there would probably not be any
arguments over whether or not a deficiency in the
grantee's system exists.
GRANTEE          As noted on page 1 of this appendix, our suggestions for
QUALITY REVIEW   structuring LSC's grantee quality review process have been
STANDARDS AND    adapted largely from the AICPA's successful peer review
PROCEDURES       and quality review processes. To implement and manage
                 an LSC grantee quality review process, the following
                 topics will need to be codified by LSC into a set of
                 g r a n t e e q u a l i t y review standards and procedures:

                 H    Reviewer Qualifications and Review Team Selec-
                      tion
                      Review Frequency
                 H    Review Procedures
                 m    Reporting

                 Our suggestions for LSC's consideration related to these
                 topics follow.


Reviewer         It is axiomatic that a person is, in general, better-
Qualifications   suited to evaluate how well an activity is being performed
and Review       if that person has actual experience in performing that
Team Selection   activity. Most grantees as well as others affiliated with
                 LSC's mission agree that current poverty law practice
                 experience should be a qualification requirement for LSC's
                 grantee quality reviewers.

                 We do not think that reviewers need or should necessarily
                 be limited to LSC grantee personnel, but they should be
                 attorneys or legal practice administrators with current
                 poverty law experience. A majority of LSC grantees re-
                 sponding to our audit's data collection instrument ex-
                 pressed a willingness to provide personnel to participate
                 as reviewers.

                 We suggest that grantee quality reviewers be required to:

                 H   Have a minimum number of years of recent poverty
                     law practice experience. (For example, no less
                     than 5 years to be a team leader; no less than 2
                     years to be a team member; and must have prac-
                     ticed poverty law within the preceding 2 years.)

                 H   Have attended recent LSC-sponsored training in
                     how to conduct a grantee quality review.

                 H    Be pre-approved by LSC as qualified to conduct a
                      review.
             m    Certify that they have no personal or organiza-
                  tional conflicts of interest with respect CO the
                  grantee they will review.

                  Identify his or her areas of legal expertise and
                  experience.

                  Have received an unqualified grantee quality
                  review report from their organization's last
                  grantee quality review (if the reviewer is from
                  a grantee).

                  Be assigned appropriately based on specific
                  experience and areas of expertise.

             LSC should consider two options for review team selection.
             The first option is to have LSC staff select the rey.7iew
             team from its database of qualified reviewers. Selection
             would be based upon a matching of grantee characteristics
             with those of the reviewers selected. The second option
             is to allow the grantee to select a team from the database
             of LSC-approved reviewers: again, based on a matching of
             reviewer expertise and the grantee's practice characteris-
             tics. Under this latter option, LSC would exercise the
             authority to veto a grantee's selection in cases where LSC
             deems the selection inappropriate.


Review       Frequency of grantee quality reviews should eventually be
Frequency    a function of review results. Better performing grantees
             may be determined to need reviews less frequently than
             grantees with observed quality problems. As a starting
             requirement, however, we suggest that grantees have grant-
             ee quality reviews performed within the next three years,
             with subsequent review intervals to be decided thereafter.
             Grantees should be required to perform "self-inspeczions"
             in years in which they do not have LSC grantee quality
             reviews. (In a self-inspection, the grantee would assign
             a senior staff member to conduct an in-house quality
             review following essentially the same review procedures
             used in an LSC grantee quality review. During the next
             LSC-mandated grantee quality review, the reviewers would
             assess the grantee's documented self-inspection results zs
             a key step in their review.)


Review       The exsct procedures needed to complete a thorough review
Procedures   will be a function of (1) the compliance requirements that
             LSC decides to monitor through the grantee quality review
             process, and (2) the LSC legal services delivery quality
standards. A standard set of review procedures will
define pre-review steps, on-site review steps? and post-
visi: review finalization procedures.

Maintaining a focus on quality issues as opposed to tech-
nical compliance issues should considerably reduce the
pre-review documentation demands placed on grantees.
Documentation needed in advance of the review will proba-
bly be limited to the grantee's quality policies and
procedures, board meeting minutes, a personnel roster, and
a list of cases handled during the review period. (The
ideal situation regarding the case list would be a case
list by grantee internal accounting number, a categoriza-
tion of each case by practice area, and the number of
staff hours devoted to each case during the period under
review. This will enable the reviewers to select the most
representative case sample for on-site review.)

On-site review procedures should encompass three phases of
review:

1.     A review of how effectively the grantee's specific
       quality policies and procedures implement LSC's legal
       services delivery quality standards.

2.     Testing of documentary evidence and interviews of
       personnel to obtain assurance that the grantee's
       quality policies and procedures are, in fact, in
       place and being performed.

3.     Other procedures designed to assess the quality and
       effectiveness of the grantee's services. This might
       include a review of a sample of case files, inter-
       views with judges, or interviews with clients.

LSC should carefully define the minimum requirements thaz
reviewers will follow for documenting the review work they
actually perform. This will enable LSC follow-up reviews
to assess the thoroughness and quality of the grantee
quality reviewers' work.

As described in our report. we recommend that LSC adop:
applicable parts of GAO's G o v e r n m e n t A u d i t i n g S t a n d a r d s zs
the standards governing the grantee quality review work.
Doing so will establish minimum requirements for indepen-
dence, technical competence, continuing education,
workpaper documentation, conduct of fieldwork, and report-
ing ~o which the reviewers must adhere.
            LSC's grantee quality review procedures should also ad-
            dress the way in which "findings" are developed and comrnu-
            nicated to grantees. Suspected deficiencies should be
            discussed with grantee personnel as soon as they become
            evident, and every attempt should be made to arrive at
            concurrence and corrective action positions before the
            site visit is completed. This will facilitate the simpli-
            fied reporting process discussed below.


Reporting   If the grantee quality review team's findings and conclu-
            sions are discussed with the grantee during and at the
            conclusion of the review, then the purpose of the report
            is solely to document the review team's conclusions and
            the grantee's reactions. The final report package can
            consist of a:

            1.     1-page scope and conclusion report,

            2.     Letter of comment containing descriptions of any
                   deficiencies noted during the review, and

            3.     Letter from the grantee indicating the grantee's
                   concurrence or non-concurrence with the conclusions
                   and brief descriptions of planned corrective actions

            Exhibit 11-1 contains suggested standard formats for the
            grantee quality review report and letter of comment.

            The letter of comment's findings should follow the forma:
            prescribed by G o v e r n m e n t A u d i t i n g S t a n d a r d s and should
            contain a concise presentation of each deficiencv noted.
            Elements of each finding should include:

            m     Condition: Brief description of the matter noted
                  during the review that indicates non-conformance
                  with established standards, policies, or proce-
                  dures.

            m     Criterion: Citation of the specific LSC legal
                  services delivery quality standard or the spe-
                  cific grantee policy or procedure that the noted
                  condition violates.

            m     Cause: Brief explanation of why the condition
                  occurred.

            m     Effect: Description of the actual or potential
                  adverse consequence that the observed condition
                  led to or could lead to if not corrected.
     Recommendation: Brief explanation of the action
     needed to correct the condition noted.

Limiting the letter of comment to these elements conveys
all necessary information in an economical, efficient, and
effective manner and focuses attention on the review
results and corrective actions needed.

Deficiencies would generally fall into one of two catego-
ries :

     Desien deficiencies in which the reviewer con-
     cludes that the grantee's policies and proce-
     dures are not designed with enough detail or
     focus to provide reasonable assurance of allow-
     ing the grantee to meet LSC's legal services
     delivery quality standards.

=    Noncom~liancewith the erantee's
                            -         ~oliciesand
     procedures in which the reviewer finds the
     grantee has not adhered to its own mandated set
     of policies and procedures.

(Reviewers may also find other, more direct evidence of a
quality deficiency. Client interviews, for example, may
yield an inordinate number of complaints about a particu-
lar grantee staff member. Often such direct evidence is
symptomatic of a more generic problem area such as a
supervision breakdown and can be traced to either the
underlying design or noncompliance deficiency.)

If grantee personnel are apprised of the grantee quality
review results at the end of the on-site review, they can
formulate a response to each noted deficiency as soon as
possible. Aside from the primary objective of facili-
tating prompt corrective action, this process will allow
the entire final report package (report, letter of c o m -
ment, and grantee response) to be delivered to LSC no
later than 30 days after completion of the on-site review.

We understand the need for and value of recognizing note-
worthy grantee accomplishments. Positive feedback is
always welcome. More important, however, is the need to
compile and disseminate lists of innovative ideas that
other programs can use. Grantee quality reviewers should
be alert for noteworthy accomplishments, but this informa-
tion should be documented and communicated to LSC and the
grantee's board through a separate document.
                 As noted previously, although we think this suggested
                 grantee quality review approach will be more effective and
                 efficient, cost savings are difficult to estimate. AS
                 described in our report, a significant number of grantees
                 have expressed a willingness to donate staff time to the
                 process. We think this willingness stems from a sincere
                 belief that grantees will benefit from a peer review
                 process and the recognition that reviewers themselves will
                 benefit greatly from studying other programs in operation.
                 If significant numbers of grantee personnel are used as
                 reviewers on a donated-time basis, LSC's monitoring func-
                 tion labor costs will decrease substantially. (See Appen-
                 dix I for a detailed discussion of projected cost sav-
                 ings.)


REDEFINED ROLE   To implement and manage the reorganized monitoring process
FOR PEAR         LSC will need to re-structure itself accordingly. Exam-
                 ples of revised PEAR duties and responsibilities that will
                 be needed include the following:

                      Separating the universe of LSC compliance re-
                      quirements into the new bifurcated structure.

                 =    Maintaining a codified set of authoritative
                      interpretations of all compliance requirements.

                 m    Defining and revising LSC's legal services de-
                      livery quality standards.

                 m    Developing the revised LSC Grantee Audit Guide,
                      including a detailed compliance audit program
                      for IPAs to follow.

                     Developing a comprehensive set of guidelines
                     describing how grantee quality reviews shall be
                     conducted.

                     Defining the grantee quality reviewer qualifica-
                     tions.

                     Recruiting grantee quality reviewers and main-
                     raining a database of grantee quality reviewer
                     information.

                     Appointing grantee quality review teams or ap-
                     proving grantee selections of review teams.

                 .   Providing technicai assistance to grantee quali-
                     ty reviewers during on-site reviews.
                    Accepting grantee quality review reports and
                    approving or rejecting grantee corrective action
                    plans.

                    Defining and implementing sanctions for grantees
                    receiving qualified or adverse grantee quality
                    review results.

                    Performing quality control reviews of grantee
                    quality review workpapers.

               m    Conducting training for grantee quality review-
                    ers.

                    Performingdeskreviews of IPAcompliance re-
                    ports.

                    Maintaining objective grantee performance indi-
                    cator data with which to rank grantees in vari-
                    ous performance categories.

               This final and important task has, according to PEAR
               personnel, already been started. It will provide valuable
               information needed to manage the overall revised grantee
               monitoring process.


QUANTIFIABLE   Considerable attention has been devoted recently to the
PERFORMANCE    development of government program performance measurement
MEASUREMENT    systems. Federal agency development of objective perfor-
               mance indicators is a crucial requirement of the Chief
               Financial Officers Act of 1990. Similarly, the Vice
               President's Report o f t h e National Performance Review
               emphasized the importance of developing and using measur-
               able objectives and reporting results. Finally, the
               principal thrust of the Government Performance and Results
               Act of 1993 is the implementation of this important man-
               agement concept.

               The process of developing quantifiable measures of grantee
               performance will be difficult and potentially controver-
               sial. It is, however, essential to LSC's need to make the
               most efficient and effective use of its limited resources.
               PEAR personnel indicated to us that they have already
               separated the universe of LSC grantees into "clusters" of
               grantees with comparable characteristics. The next task
               needed is to determine the performance measures to be
               collected and maintained that will rank the grantees
               within each cluster.
We encourage PEAR to continue and complete its efforts to
develop both programmatic and administrative performance
measures, define data collection methods, and begin com-
piling and reporting the results.

We envision three principal positive results from the
implementation of quantifiable performance measures.
First, these indicators will allow LSC to identify poorly
performing grantees so that grantee quality review and
technical assistance resources can be focused in the areas
where they will achieve the greatest positive impact.

Second, by defining the indicators that LSC will measure,
LSC will be communicating in the clearest possible fashion
what grantee priorities should be. For example, if LSC
decides it is beneficial to encourage grantees to expand
their funding bases, then LSC can require grantees to
routinely report their ratios of non-LSC to LSC funding
and recognize (1) grantees with the highest ratios and (2)
grantees showing the greatest increases in this ratio over
time .

Finally, these performance indicators will be an excellent
means of recognizing publicly programs that consistently
perform at high levels as well as programs that show
consistent and significant improvement over time.
                                                                   Exhibit 11-1
                                                                   Page 1 of 2

                     Suggested Standard Format for an LSC
                        Grantee Quality Review Report

                                 July 3 0 , 19XX

To the Board of Directors
Legal Services Corporation
Washington, D.C.

     We have reviewed the system of legal services delivery quality of the
Statewide Legal Services Program (the Program) in effect for the year ended
June 3 0 , 19XX. Our review was conducted in conformity with the U.S. General
Accounting Office's Government Auditing Standards (for performance audits) and
LSC's Standards and Procedures for the Conduct of Quality Reviews of LSC
Grantees. We tested compliance with the Program's Legal Services Deliverj-
Quality Policies and Procedures and with LSC's Legal Services Delivery Quality
Standards to the extent we considered appropriate. These tests included the
application of the Program's policies and procedures on selected case files
and other appropriate documentation.

                           [UNQUALIFIED CONCLUSION]
     Based on our review, we concluded that the Statewide Legal Services
Program was in substantial compliance with LSC's Legal Services Delivery
Quality Standards and the Program's Legal Services Delivery Quality Policies
and Procedures during the year ended June 3 0 , 19XX. As part of our review, we
noted several areas in which the Program's policies and procedures can be
strengthened and improved. These are described in the enclosed Letter of
Comment .

                            [QUALIFIED CONCLUSION]
     Based on our review, we concluded that the Statewide Legal Services
Program was in substantial compliance with LSC's Legal Services Delivery
Quality Standards and the Program's Legal Services Delivery Quality Policies
and Procedures during the year ended June 3 0 , 19XX, except for the matters
described in the enclosed Letter of Comment.

                             [ADVERSE CONCLUSION]
     Based on our review? we concluded that the Statewide Legal Services
Program was not in substantial compliance with LSC's Legal Services Delivery
Quality Standards and ?he Program's Legal Services Delivery Quality Policies
and Procedures during the year ended June 30, 19XX. because o f the matters
described in the enclosed Letter of Comment.


                                      Very truly yours,


                                      Jane Brown
                                      Team Captain
                                                                     Exhibit 11-1
                                                                     Page 2 of 2


                      Suggested Standard Format for an LSC
                         Grantee Quality Review Report
                               Letter of Comment


     We have reviewed the system of legal services delivery quality of the
Statewide Legal Services Program (the Program) in effect for the year ended
June 30, 19XX, and issued our report thereon, dated July 30, 19XX. This
letter should be read in conjunction with that report.

         Our review was for the purpose of reporting upon the Program's system of
legal services delivery quality. Our review was performed in accordance with
the U.S. General Accounting Office's Government A u d i t i n g Standards (for
performance audits) and LSC's Standards and Procedures f o r t h e Conduct of
Q u a l i t y Reviews of LSC Grantees. Our review would not, however, necessarily
disclose all weaknesses in the system or lack of compliance with LSC's
requirements, because our review was based on selective tests.

     There are inherent limitations that should be recognized in considering
the potential effectiveness of any quality control system. In the performance
of most control procedures, departures can result from misunderstanding of
instructions, mistakes of judgment, carelessness, or other personal factors.
Projection of any evaluation of a quality control system to future periods is
subject to the risk that the procedures may become inadequate because of
changes in conditions or that the degree of compliance with the procedures may
deteriorate.

Matters That Resulted In a Modified Report

     The following matters noted during the review resulted in our issuance of
[a qualified] [an adverse] conclusion with respect to the Program's system of
legal services delivery quality.

     [Concise statements of condition, cause, criterion, effect, and
     recommendation for each specific deficiency noted.]

[Other1 Areas For Improvement

     The following matters noted during the review represent areas in which
the Program's system of legal services delivery quality can be strengthened
and improved.

    [Concise statements of condition, cause, criterion, effect, and
    recommendation for each specific improvement area noted.]
Appendix I11

               OBJECTIVES, SCOPE AND METaODOLOGY


OBJECTIVES     At the request of the Inspector General of the Legal
               Services Corporation, Cotton & Company conducted a perfor-
               mance audit of the personnel, policies, procedures, opera-
               tions, and outcome, of the LSC grantee monitoring process,
               including: (1) pre-visit preparation; (2) on-site review;
               (3) report development; and (4) follow-up and enforcement,
               for the period October 1 , 1991, through July 31, 1993.

               Specific objectives were to:

               I.   Determine if LSC's monitoring is essential (are the
                    monitoring visits necessary) and, if deemed essen-
                    tial, can the monitoring be performed more economi-
                    cally and less intrusively.

               2.   Determine if current grantee monitoring objectives
                    are consistent with LSC's objectives and if the
                    current level of grantee monitoring performance
                    materially satisfies the requirements delineated in
                    the Legal Services Act of 1974, as amended.

               3.   Document current procedures and policies used to
                    monitor recipients and the basis for these procedures
                    and policies, and determine if management has consid-
                    ered alternative procedures.

               4.   Gain an understanding of and document internal con-
                    trols in place over recipient monitoring procedures
                    and policies.

               5.   Determine the criteria used and the bases for these
                    criteria to determine if a recipient is providing
                    high-quality legal services to authorized persons.

               6.   Determine if the grantee monitoring process adequate-
                    ly assesses each LSC recipient's compliance with the
                    Act, regulations, and other applicable laws in deliv-
                    ering high-quality, efficient, and economical assis-
                    tance to clients.

               7.   Identify any policies, procedures, or practices
                    relating to the monitoring process that are ineffi-
                    cient or uneconomical.
                 8.    Determine if the monitoring process duplicates, over-
                       laps, or conflicts with related activities.

                 9.    Determine the causes of any unsatisfactory perfor-
                       mance or noted inefficient or uneconomical policies,
                       procedures, or practices related to the monitoring
                       process.

                 10.   Identify any monetary benefits to be derived from
                       correcting unsatisfactory performance, noted ineffi-
                       ciencies, or uneconomical practices relating to moni-
                       toring.

                 11.   Identify methods or means to improve the monitoring
                       of grant recipients.


SCOPE AND        We conducted this performance audit between August 9 ,
METHODOLOGY      1993, and January 14, 1994, in accordance with G o v e r n m e n t
                 Auditing S t a n d a r d s for performance audits as defined by
                 the Comptroller General of the United States.

                 Our approach to meeting these objectives encompassed two
                 major phases: a survey phase and an audit phase.


Survey   Phase   In the survey phase, we researched, collected, and ana-
                 lyzed data to determine the universe of LSC compliance and
                 performance requirements, the universe of grant recipi-
                 ents, and the number of grantee monitoring reports issued
                 during the period October 1 , 1991, through July 31, 1993.
                 We reviewed the LSC Act, regulations on monitoring, grant
                 assurances, monitoring guidelines prepared by PEAR, the
                 Audit and Accounting Guide for Recipients and Auditors
                 (Audit Guide), Board minutes, and numerous other legal
                 services-related reports and publications.

                 We reviewed and flowcharted the monitoring process, in-
                 cluding specific steps, procedures, and internal controls
                 followed in pre-visit planning and preparation, on-site
                 monitoring visits, draft report development, grantee
                 commenting on draft reports, and issuance of final moni-
                 toring reports. We obtained and reviewed resumes of both
                 LSC in-house and consultant monitors in order to assess
                 their qualifications and experience. We reviewed and dis-
                 cussed monitor training.

                 We visited several grantees to discuss strengths and weak-
                 nesses of the current monitoring process, ways to improve
                 the monitoring process, and the feasibility of peer review
              and a self-assessment certification process. We held
              similar discussions with senior attorneys of the Center
              for Law and Social Policy (CLASP) and with the former
              Chairman of the ABA Standing Committee on Legal Aid and
              Indigent Defendants (SCLAID) subcommittee that developed
              Standards for the Monitoring and Evaluation of Providers
              of Legal Services to the Poor.

              We developed and tested procedures for estimating the cost
              of performing each of the monitoring and reporting phases.


Audit Phase   Based on survey phase results, the audit phase was de-
              signed to gather and analyze data to assess the feasibili-
              ty of:

              1.   Reducing on-site monitoring visits by requiring com-
                   pliance through a grantee self-assessment and certif-
                   ication process, coupled with attestation procedures
                   by the grantee's IPA regarding the veracity of the
                   grantee's certification.

              2.   Implementing a quality review process for assessing
                   the more qualitative compliance requirements, primar-
                   ily the requirement to provide high quality and
                   effective legal services.

              3.   Realigning PEAR'S mission and goals to enable it to
                   carry out the management and oversight of a revised
                   monitoring function.

              When we presented the results of the survey to PEAR man-
              agement and solicited their views, ideas, and suggestions
              for carrying out the audit phase, PEAR management rejected
              out-of-hand our survey approach and results as being
              biased, having a preconceived outcome, and lacking in
              basic understanding of or appreciation for the current
              monitoring process. PEAR management offered no construc-
              tive views, ideas, or suggestions regarding the thrust of
              our audit phase effort. As a result, we used information
              gathering techniques that essentially obviated the need
              for PEAR management's direct input.

              With input from CLASP and SCLAID members, and the Execu-
              tive Director, Legal Services of Northern Virginia, Inc.
              (who is also a participant in LSC's Comparative Demonstra-
              tion Project), we designed a comprehensive questionnaire
              to: (1) obtain grantee evaluations of the usefulness and
              effectiveness of the current monitoring process, and (2)
              elicit a wide range of views about the above concepts of
quality review and grantee self-assessment. The question-
naire was also reviewed within LSC by the OIG and the
Project Director of the Comparative Demonstration Project.

The questionnaires were sent to 323 LSC grantees, several
sub-recipients, bar associations, and others. The number
of grantees responding totaled 150, for a response rare of
46.4 percent. (Five of these arrived too late to be
incorporated into this report.) We tabulated these re-
sponses for further analysis and summarization to support
report findings, conclusions, and recommendations. To
test for bias in responses regarding the current monitor-
ing process, we compared aggregated responses by grantees
against whom LSC had issued any form of sanctions during
the previous 8 years with other grantees who had received
no sanctions. There were no significant differences in
their responses. Responses other than by grantees and
sub-recipients were not used in arriving at our conclu-
sions, because they were not complete, only a small number
responded, and they did not appear to represent a clearly
definable segment of the legal services csmmunity.

We also designed and administered a questionnaire to in-
house and consultant monitors to get their inputs on
several aspects of the current monitoring process, includ-
ing the extent to which monitoring conforms to standards
promulgated by any recognized standards-setting body; the
existence and reliability of PEAR'S internal quality
control over the monitoring procedures--including supervi-
sion, workpaper preparation and review, competence of
evidential matter, and referencing process--to assure the
objectivity and accuracy of monitoring reports; the pres-
ence of conditions that could impair monitors' objectivity
and independence; and monitors' views on PEAR'S general
control environment.

To obtain statistically significant results, we randomly
selected 31 grantees from a universe of 207 grantees that
underwent on-site monitoring visits between October 1 ,
1991, and March 31, 1993--the latter date representing
approximately the most recent visits for which final
monitoring reports would have been issued. Far the sample
selected, we obtained copies of draft monitoring reports.
correspondence between LSC and the grantees, grantee
comments on draft reports, and final monitoring reports.
From this information we noted: the number of pages in
draft reports, grantee responses, and final reports; the
number of recommendations made in draft and final reports;
the number of recommendations to correct material defi-
ciencies; the number of recommendations we considered weak
                    or trivial, i.e., containing language such as "should
                    consider," "should continue to," or "may wish to," (such
                    recommendations would not be mandatory, based on the LSC
                    Act or Regulations); the number of grantee response state-
                    ments directed at correcting factual errors or misstate-
                    ments of grantee program elements, neither of which relac-
                    ed to areas needing management attention; and the number
                    of recommendations dealing with fiscal and administrative
                    matters which should be routinely covered in audits by
                    IPAs .

                    To develop monitoring cost estimates, we used accounting
                    data (provided by LSC's Comptroller) summarizing PEAR's
                    expenses for FY 1993.

                    We obtained the distribution of PEAR staff time to the
                    various monitoring functions and other direct cost objec-
                    tives from a detailed 2-month time study conducted by PEAR
                    in 1992.

                    As shown in Exhibit 1-1 of Appendix I , we used the above
                    information to calculate indirect cost rates, compute
                    direct and indirect costs for each of the monitoring
                    functions, and calculate the cost of current monitoring by
                    three identifiable phases: (1) pre-visit. (2) on-site, and
                    (3) reporting.

                    We obtained cost estimates from 96 grantees, also by the
                    above three phases. They provided cost estimates for per-
                    sonnel, copying, telephone, and postage, for each phase of
                    the monitoring process."




     ' The various elements discussed above, on which we based our cost
estimates and calculated potential savings, were not audited by us. There-
fore, some qualifications are appropriate: First, the F'Y 1993 expenses
summary was presumed to be accurate. Second, PEAR's 2-month detailed time
study was presumed to (a) accurately account for all PEAR personnel hours for
the period, and (b) be reasonably representative of our audit period. Third,
our methodology for developing the cost of each monitoring function could
result in slight misstatements, because this methodology did not recognize
probable differences in labor rates. Thus, for example, employees who
produced briefing books may have been lower-paid than those who wrote and
reviewed reports. If so, then the cost of briefing books in our calculation
would be somewhat overstated, while the cost of reporting would be understat-
ed. Fourth, estimates provided to us by the grantees were presumed to be
reasonably accurate and represent the universe of 323 grantees.
           As explained in Appendix I , we calculated an estimated or
           potential LSC cost savings that will result from a revised
           compliance monitoring structure. We first determined the
           annual cost to LSC of the current monitoring structure.
           Next, we developed estimates (based on conservative as-
           sumptions about various aspects of the process) of the
           annual costs to LSC of the various components of a recom-
           mended revised monitoring structure. Subtracting the
           estimated total annual cost to LSC of the revised monitor-
           ing process from the annual cost to LSC of the current
           process yields the anticipated cost savings.


INTERNAL   In planning and performing our evaluation of internal
CONTROLS   controls over grantee monitoring procedures and policies,
           we assessed PEAR'S internal control structure to the
           extent deemed necessary to form conclusions related to
           audit objectives and not to provide overall assurance on
           either the LSC or PEAR internal control structures.

           We noted certain matters involving the PErlR internal
           control structure and its operation related to grantee
           monitoring that we consider to be reportable conditions.
           These conditions are discussed in our report under the
           heading "Monitoring and Reporting Policies are Not Based
           on Standards" (pages 4 to 7).
   -     LEGAL SERVICES CORPORA TION


                                    MEMORANDUM



TO:            Edouard Quatrevaux, Inspector General
               Office of the Inspector General
                                                          x&       ,-




FROM:          John A. Tull,
               Office of Program               Analysis And Review

DATE:          March 31, 1994

SUBJECT:       Response to the Cotton and Company Report on the Performance Audit of the
               Grantee Monitoring Function by the Legal Services Corporation



        Thank you for the opportunity to review the findings of Cotton and Company with regard
to monitoring by the Office of Program Evaluation Analysis and Review (OPEAR). As you
know, the Transition Management Team has conducted its own evaluation of OPEAR and its
performance of monitoring and has undertaken a substantial reorganization of the department as
a result of that evaluation. Conclusions were consistent with those of the Cotton and Company
and we agree with the findings in their Report.

        We also agree in principle with the recommendations in the Report. In the course of the
departmental reorganization, we are giving careful consideration to the recommendations and are
already making substantial changes in the method and procedures used in monitoring to enhance
the economy and efficiency of the process. We anticipate having a new approach to monitoring
fully in place by late summer of this year. In the interim monitoring activity will take place with
an eye to testing the viability of various approaches including those suggested in the Report.




                                               IV- 1
